OFFICE OF INSPECTOR GENERAL
semiannual report
to congress
April 1 – September 30, 2005
Mission Statement
           The mission of the U.S. Postal Service Office of Inspector General
           is to conduct and supervise objective and independent audits,
           reviews, and investigations relating to Postal Service programs
           and operations to:

                        n	 Prevent     and detect fraud, waste, and misconduct;

                        n	 P
                            romote     economy, efficiency, and effectiveness;

                        n	 Promote      program integrity; and

                        n	 Keep  the Governors, Congress, and Postal Service
                             management informed of problems, deficiencies, and
                             corresponding corrective actions.




    | Semiannual Report to Congress
A Message From The Inspector General
A    fter two years of reform and restructuring, the
      U.S. Postal Service Office of Inspector Gen-
eral (OIG) has achieved a state of health and
                                                       Committee on Government Reform and Over-
                                                       sight, Activities of the House Committee on
                                                       Government Reform and Oversight noted “the
maturity as an organization. We have significant       Chief Postal Inspector [is] to focus his energies
increases in the quality and volume of our audit       on his duties of ensuring the security of postal
and investigative work products. And we are            facilities and employees, protecting the public
nearing optimal production.                            from mail fraud schemes and other criminal
                                                       usage of the mail, and enforcing the laws regard-
In Fiscal Year (FY) 2005, we issued 378 audit
                                                       ing revenue protection.”
reports, management advisories and other prod-
ucts. These efforts resulted in total monetary         The Postmaster General announced in Septem-
benefits of $386,288,465. We made 109 signifi-         ber 2004, “We are planning to move appropriate
cant audit recommendations, of which 104 were          internal crimes work to the OIG to be consistent
accepted by the Postal Service. In addition, we        with Congressional intent. The USPIS will focus
closed 3,400 investigative cases and referred          its efforts on areas of responsibility which con-
1,292 to management for administrative action,         gress has designated as within its exclusive
and made 376 arrests and indictments that              jurisdiction.”
resulted in nearly $66.5 million in fines, restitu-
                                                       Following the Postmaster General’s announce-
tions, and recoveries.
                                                       ment, the OIG has prepared itself and is ready
This is the year we began to fully implement the       to assume the jurisdiction on internal matters.
Inspector General Act (the Act) within our Office of
                                                       In closing, this semiannual report discusses the
Investigations.
                                                       management challenges facing the Postal Service
As background, Congress’s 1996 amendment to            today, as determined by the OIG: cost control;
the Inspector General Act establishing an indepen-     revenue; human capital; preserve safety and
dent OIG provided two operational imperatives for      security; and strategic direction. We are also con-
the Postal Service. The Act directs consolidation      tinuing our exploration of ideas and concepts
of audit and internal investigative functions within   on postal operations and programs that may
the OIG. The amending legislation specifically         contribute to reduced costs, improve efficiencies,
requires coordination and cooperation to avoid         increase revenue, or introduce new ways of
duplication of efforts by the U.S. Postal Inspection   doing business.
Service (USPIS) and the OIG.
Additionally, a formal opinion by Department of
Justice Office of Legal Counsel explains that “The
Act’s mandate to consolidate audit and investiga-
tive functions, its prohibition of interference with
the Inspector General’s performance of those
functions, and the Senate Report’s warning
against duplication of effort, combine to dictate
extreme caution when assigning audit or investi-
gative responsibilities to another agency official.”
In hearings, Congress gave ample direction when
it created the independent OIG. Congress told
the Postal Service to stop investigating itself. It
did not want the Postal Service’s chief law
enforcement officer and member of postal man-
agement serving as its Inspector General. The




                                                                                                       April–1March
                                                                                           October 1, 2004    – September 30,| 2005
                                                                                                                    31, 2005       | 
Summary Of Performance
April 1 – September 30, 2005

                                             AUDIT
                                             Reports issued........................................................................................................................205
                                             Significant recommendations issued.........................................................................................60
                                             Total reports with financial impact............................................................................................. 81
                                                 Funds put to better use......................................................................................$146,674,881
                                                 Questioned costs1............................................................................................... $58,230,112
                                                 Unrecoverable costs..............................................................................................$9,201,939
                                                 Potential additional revenue................................................................................... $1,919,843
                                                 Potential additional expense.......................................................................................$22,608
                                             TOTAL2..................................................................................................................$216,049,383

                                             INVESTIGATIONS3
                                             Investigations completed.......................................................................................................2,131
                                             Arrests..................................................................................................................................... 101
                                             Indictments/informations........................................................................................................... 81
                                             Convictions/pretrial diversions4................................................................................................. 57
                                             Administrative actions..............................................................................................................986
                                             Cost avoidance..........................................................................................................$25,730,568
                                             Total fines, restitutions, and recoveries5........................................ $54,193,376
                                                 Amount to Postal Service (included in total figure above) 6....................................$4,344,881

                                             HOTLINE CONTACTS
                                             Facsimile – FAX........................................................................................................................284
                                             E-mail.................................................................................................................................... 3,765
                                             Standard Mail.......................................................................................................................... 750
                                             Voice mail messages............................................................................................................ 1,458
                                             Telephone calls................................................................................................................... 18,387
                                             TOTAL CONTACTS......................................................................................................... 24,644




                                             1� Includes unsupported costs of $994,664.
                                             2� The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented, could result in more than $216 million in savings.
                                             3� Statistics include joint investigations with the U.S. Postal Inspection Service and other law enforcement agencies.
                                             4� Convictions reported in this frame may be related to arrests made in prior reporting periods.
                                             5� Some fines and recoveries were from the previous reporting period, but not previously reported.
                                             6� Amount included in fines, restitution, and recoveries.




        II | Semiannual Report to Congress
Table Of Contents

FEATURE STORIES......................................................................................................2

      Disaster Preparedness...........................................................................................2
      Mail Processing Operations...................................................................................4

MANAGEMENT CHALLENGES....................................................................................7

      Cost Control...........................................................................................................7
      Revenue............................................................................................................... 14
      Human Capital..................................................................................................... 17
      Preserve Integrity and Security............................................................................20
      Strategic Direction................................................................................................ 24

IDEAS WORTH EXPLORING......................................................................................26

ORGANIZATIONAL CHART........................................................................................32

MAP OF OFFICE LOCATIONS....................................................................................33

APPENDICES.............................................................................................................34

     Appendix A – Reports with Quantifiable Potential Monetary Benefits................34
                            Report Listing..............................................................................40

      Appendix B – Findings of Questioned Costs......................................................45

     Appendix C – Recommendations That Funds Be Put to Better Use.................. 47

      Appendix D – Reports with Significant Recommendations Pending
                    Corrective Actions.......................................................................48

      Appendix E – Significant Management Decisions in Audit Resolution...............50
     Appendix F – Investigative Statistics..................................................................50
     Appendix G – Summary of U.S. Postal Inspection Service Actions
                   Under Title 39 USC § 3013.......................................................... 51
      Appendix H – Closed Congressional and Board of Governors Inquiries............ 52
Supplemental Information...............................................................................54
      Investigative Case Highlights................................................................................54
      Freedom of Information Act..................................................................................56
      Glossary............................................................................................................... 57




                                                                                                                                   April 1 – September 30, 2005 | 
Feature StorIES
                                     This section has two separate feature                        focus on key vulnerabilities, the Postal
                                     stories. One focuses on the importance                       Service made significant strides toward
                                     of disaster preparedness for the Postal                      protecting the integrity of the mail stream
                                     Service, including the impact of Hur-                        by making its systems safer and more
                                     ricane Katrina. The second describes mail                    secure.
                                     processing operations. It begins with a
                                                                                                  In August 2005, the Gulf Coast
                                     primer on processing First-Class Mail and
                                                                                                  experienced a natural disaster of historic
                                     Standard Mail and ends with future plans
                                                                                                  proportions. Damaging or destroying
                                     for processing changes.
                                                                                                  Postal Service facilities in three states,
                                                                                                  Hurricane Katrina seriously degraded the
                                     Disaster Preparedness                                        Postal Service’s ability to operate and
                                                                                                  secure mail along the coastline. To
                                     From anthrax and ricin attacks through
                                                                                                  respond, the Postal Service had to rely
                                     the mail to recent hurricanes, the Postal
                                                                                                  on mobile mail processing units to service
                                     Service is challenged with numerous
                                                                                                  affected areas. In the days following the
                                     disasters, both natural and man-made,
                                                                                                  disaster, we responded by deploying
                                                                                                  more than 60 personnel to these areas to
                                                                                                  assist in recovery operations, locate
                                                                                                  employees, help assess damage to hun-
                                                                                                  dreds of post offices, and work with the
                                                                                                  U.S. Postal Inspection Service (USPIS) to
                                                                                                  ensure the security of Postal Service
                                                                                                  operations.
                                                                                                  The Postal Service’s Office of Emergency
                                                                                                  Preparedness is making efforts to better
                                                                                                  manage incidents, implement protective
                                                                                                  measures, and better integrate pro-
                                                                                                  cesses. It is responding to the Homeland
                                                                                                  Security Presidential Directive 5 by imple-
                                                                                                  menting a comprehensive emergency
                                                                                                  management plan throughout the Postal
                                                                                                  Service. The Postal Service’s Integrated
Two OIG special agents examine a stolen Postal Service Long Life Vehicle abandoned on I-10 near   Emergency Management Plan (IEMP) has
Canal Street in New Orleans.                                                                      a goal to improve coordination of planning
                                     which adversely impact mail delivery.                        and response activities among functional
                                     These incidents led to a renewed empha-                      areas. It should minimize duplication of
                                     sis on developing initiatives to more                        planning efforts and establish a standard-
                                     effectively secure the nation’s mail system.                 ized emergency management process.
                                     After terrorist attacks in September                         To support emergency preparedness
                                     2001, the federal government began                           initiatives, the USPIS implemented inter-
                                     focusing attention on improving the                          nal and external procedures to protect
                                     safety and security of our nation’s criti-                   the Postal Service, and the public, from
                                     cal infrastructures. Due to its sheer size                   threats to homeland security. Postal
                                     and geographic dispersion, securing the                      inspectors are developing plans to enable
                                     nation’s mail system is a significant chal-                  the Postal Service to continue govern-
                                     lenge. However, through innovation and                       ment functions, even during times of




  | Semiannual Report to Congress
                                                                                                                                                            Feature StorIES
crisis. Further, inspectors assist with
implementing training for IEMP and
Biohazard Detection Systems (BDS) for
the Postal Service. This training provides
Postal Service employees with proce-
dures for handling emergencies and
activations of the BDS.
In support of Postal Service security, we
participate in the Mail Security Task Force
and attend training relating to IEMP and
Dangerous Mail Investigations. We are
also a member of the President’s Council
on Integrity and Efficiency (PCIE) Home-
land Security Roundtable, which shares
information on related security work
performed by all OIGs. We have reviews
planned related to natural disasters, and       OIG special agents stop to survey local damage after just having assisted the Postal Service
are currently conducting an extensive           Human Resources team in recovering personnel files from the New Orleans District Office.
body of work related to Hurricane Katrina
in coordination with the PCIE.                  n   Temporarily restricting Standard Mail
                                                    delivery to storm-stricken areas.
Hurricane Katrina’s Impact on                   n   Establishing alternative mail processing
Mail Processing Operations                          and delivery methods, including tem-
While the Postal Service continues                  porary mail distribution at facilities for
addressing inefficiencies and excess                evacuated residents.
capacity in its vast processing and dis-
                                                n   Facilitating Change of Address pro-
tribution network, some excess capacity
                                                    cedures to provide mail services for
in the network provides flexibility for the
                                                    displaced customers. More than
Postal Service to respond to various situ-
                                                    100,000 changes of address were filed
ations. This was evident after Hurricane
                                                    during the first three weeks after the
Katrina, when mail processing operations
                                                    hurricane.
were suspended at four key mail process-
ing facilities and operations were severely     n   Locating and leasing an existing ware-
constrained at other facilities along the           house building to serve as a temporary
Gulf Coast.                                         mail processing facility near New
                                                    Orleans.
The Postal Service reacted by redirect-
ing mail to other locations and quickly         n   Restoring mail services and returning
implementing procedures to restore mail             post offices to full or limited service as
processing operations. These measures               soon as possible.
included:
                                                The Postal Service mail processing
n   Moving some mail out of facilities in the   operations were well prepared for the
    path of the hurricane.                      aftermath of Hurricane Katrina. We plan to
                                                continue working with the Postal Service
n   Relocating mail and equipment to
                                                to assess mail processing operations and
    higher elevations at facilities in the
                                                recovery efforts in the wake of this natural
    path of the hurricane before the storm
                                                disaster.
    arrived.




                                                                                                                              April 1 – September 30, 2005 | 
Mail Processing Operations
From the time of Benjamin Franklin, the nation’s first Postmaster                                    Many large mailers also apply barcodes to their mail in-house to
General, through the middle of the 20th century, most mail was                                       take advantage of automation discounts offered by the Postal
sorted by hand, one letter at a time. Today, the Postal Service                                      Service.
relies on a sophisticated automation program to electronically
read addresses, apply barcodes that represent the addresses,                                         The following sections describe typical mail flows for First-
and then sort the mail. Mail prepared for automation bypasses                                        Class Mail and Standard Mail at the Postal Service.
manual processes resulting in less handling, lower costs, and
quicker delivery. For the most part, all mail is processed in a
similar fashion.




Chart 1                                   2

                                      POST                   AIR MAIL
                                      OFFICE                 CENTER        4

                                                                        LOCAL P&DC


                 POSTAL
                 CARRIER
 1                                             3


                                                                                                 5
       US MAIL




                           SEPARATE                          CANCEL                     POST
                                       PROCESSING &                                     OFFICE
                                       DISTRIBUTION CENTER




                                                                                     HOME

                                                                                                 6
                              SORT                       BARCODE




First-Class Mail Processing
An example of First-Class Mail processing is a greeting card                                             – Last, the greeting card is subsequently sorted to the first
mailed from Alexandria, VA, to Los Angeles, CA. This card                                                  three digits of the ZIP Code by the same machine that
would be processed as follows (see Chart 1):                                                               applied the barcode and then sent to its next destination.
                                                                                                           (Multiple sorts are required because of the high number
n    It is picked up from a mailbox by a carrier and brought to
                                                                                                           of five-digit ZIP Codes.)
     the local post office.
                                                                                                     n   Next, the card is transported to the Washington-Dulles Air
n    It is next transported to the Northern Virginia Processing
                                                                                                         Mail Center (AMC) in Virginia and flown to the Worldway Air
     and Distribution Center (P&DC) where:
                                                                                                         Transfer Office (ATO) in California.
     – First, it joins other letters and packages for separation by
                                                                                                     n   After arriving at the Worldway ATO, mail is transferred to the
       mail handlers with the assistance of a machine that sepa-
                                                                                                         Los Angeles P&DC where mail processing clerks again use
       rates the mail based on its size.
                                                                                                         the same type of machine to perform a final sort of the mail
     – Next, a different machine applies the postmark and can-                                           to its five-digit ZIP Code for the letter carrier.
       cels the postage stamp.
                                                                                                     n   Finally, the greeting card is transported to the local post
     – Then, another machine, operated by a mail processing                                              office to be picked up by a letter carrier and delivered to the
       clerk, applies a barcode reflecting the proper destination.                                       addressee.




                    | Semiannual Report to Congress
Chart 2




                                                                                                                                    Feature StorIES
                   3
                                                                  Standard Mail Processing
                 LOCAL                                            An example of Standard Mail processing is a
                 BMC
                                    P&DC                          package mailed from Arlington, VA, to Dallas,
                                                  4
                                                                  TX, that takes the following steps (see Chart 2):
 1
      BMEU
                                                                  n   The package enters the mail stream via a
      OR DMU                                                          Business Mail Entry Unit (BMEU) in North-
                         2                                            ern Virginia, a post office, or a detached
               BULK MAIL CENTER               POST
                                                                      mail unit (DMU) (an area in a mailer’s facility
                                              OFFICE
                                                                      where postal employees perform mail veri-
                                                          5
                                                                      fication, acceptance, dispatch, and other
                                                                      postal functions).
                                                                  n   It is then transported to the Washington,
                                                                      DC, Bulk Mail Center (BMC) where it is pro-
                                           HOME
                                                                      cessed by clerks and mail handlers. Unlike
                                                                      First-Class Mail, this mail generally does
                                                                      not need to be separated or have stamps
                                                                      cancelled because postage stamps are not
                                                      6
                                                                      used. Mailers apply other types of postage
                                                                      such as metered postage or permit imprint.
                                                                  n   Next, various pieces of equipment sort the
                                                                      package to its three-digit ZIP Code for Dal-
                                                                      las.
                                                                  n   The package is then transported to the Dal-
                                                                      las BMC for final sorting to its five-digit ZIP
                                                                      Code for the letter carrier.
                                                                  n   Finally, the package is transported to the Dal-
                                                                      las P&DC for dispatch to a post office where
                                                                      a letter carrier delivers it to the addressee.




               Automated Package Processing System (APPS)
               The first automated package processing systems
               (APPS) were installed in the New York Metro Area
               in FY 2005.




                                                                                                      April 1 – September 30, 2005 | 
                                    Changes to the Mail Processing                   n   Closing over 38 Remote Encoding
                                                                                         Centers that assign barcodes to mail
                                    Network                                              pieces from out-of-town locations.
                                    The Evolutionary Network Development
                                    (END) is the Postal Service’s network            n   Converting BMCs that process and
                                    redesign strategy. The END initiative                distribute bulk Standard Mail and par-
                                    is to migrate to a flexible network that             cels to Regional Distribution Centers to
                                    increases operational efficiency, reduces            address redundancies in the network.
                                    costs, and improves consistency of               n   Converting Priority Mail Processing
                                    service. This future network will have               Centers that process only Priority Mail,
                                    Regional Distribution Centers, Local                 to Logistics and Distribution Centers
                                    Processing Centers, and Destinating                  that process multiple types of mail.
                                    Processing Centers. Significant changes
                                    are also taking place in the mail process-       Looking Toward the Future
                                    ing operations at the network level. Some        The Postal Service and the OIG will
                                    examples of processing changes are:              continue working together to identify
                                    n   New automated equipment that is              opportunities to improve operations and
                                        being developed will sequence flats          reduce costs. Some of the near-term
                                        (large envelopes, magazines, and             challenges for the Postal Service in mak-
                                        publications) in delivery order. This will   ing END a reality include continuing to:
                                        eliminate manual sorting and thereby         n   Transition to a new infrastructure that
                                        achieve savings. The Postal Service              focuses on processing mail based on
                                        plans to field test this equipment in            shape.
                                        April 2006 with deployment scheduled
                                        to begin early in 2008.                      n   Streamline the processing network by
                                                                                         implementing Area Mail Processing
                                    n   Other new equipment has been devel-              proposals.
                                        oped to further automate the parcel
                                        process and eliminate manual keying          n   Streamline the transportation network,
                                        of addresses. These machines are cur-            including the Surface Transfer Centers
                                        rently being deployed in large plants to         (formerly called the Hub and Spoke
                                        replace small parcel sorting machines.           Program) and AMCs.

                                    n   Elimination of some outdated and             n   Develop and deploy various types of
                                        labor-intensive mail bag sorting                 new mail processing equipment.
                                        machines will increase efficiency in         n   Perform an analysis of trailer require-
                                        plants. Mail in trays is more efficient          ments and lease versus buy decisions
                                        and easier to process.                           to optimize vehicle management
                                    The Postal Service is also making net-               prior to the possible extension of the
                                    work infrastructure changes to improve               National Trailer Lease in 2006.
                                    efficiency and service, as well as reduce
                                    costs. Examples include:
                                    n   Closing over 50 annexes that are tem-
                                        porary plants used for mail processing
                                        when space is limited.




 | Semiannual Report to Congress
                                                                                                                           MANAGEMENT CHALLENGES
MANAGEMENT CHALLENGES
In this section, we identify and assess the    increases operational effectiveness, and
status of the major management chal-           improves operational efficiency.
lenges confronting the Postal Service:
                                               In 2002, we developed a methodology
cost control, revenue, human capital, pre-
                                               to evaluate the efficiency of the Postal
serve integrity and security, and strategic
                                               Service’s mail processing operations.
direction.
                                               During this reporting period, we identified
                                               opportunities to improve operations by
Cost Control                                   reducing more than 300,000 workhours
                                               in four mail processing facilities.
The Postal Service has made a signifi-
cant infrastructure investment to meet its     We recommended that the Postal
universal service obligation. Delivery now     Service:
extends to more than 144 million delivery
                                               n   Improve efficiency and consolidate the
points involving more than 290,000 city
                                                   network by reducing 202,000 work
and rural letter carriers, and approxi-
                                                   hours at the Canton P&DF. This work
mately 7,100 box delivery highway route
                                                   hour reduction could produce a cost
contractors. Based on these facts and
                                                   avoidance of approximately $64 million
our work in the areas of delivery, mail
                                                   in labor savings over 10 years.
processing operations, transportation,
and contracting, we believe cost control       n   Improve efficiency of operations at the
continues to be a significant issue for the        Los Angeles International Service Cen-
Postal Service, and will likely remain so          ter by reducing 85,000 work hours,
for some time. The greatest opportuni-             producing a cost avoidance of $26 mil-
ties to reduce costs continue to be in the         lion over 10 years.
areas of optimizing the network to control
                                               n   Improve efficiency of the Airmail
delivery costs, increasing efficiencies of
                                                   Records Units at the Los Angeles and
technology investments, and maximizing
                                                   San Francisco International Service
the cost-effectiveness of contracts.
                                                   Centers by reducing 13,207 work
As part of our ongoing initiative to add           hours, producing a monetary impact of
value to the Postal Service, we imple-             about $4.4 million over 10 years.
mented the Value Proposition. Its aim is
developing audit work that maximizes           Mail Evaluation, Readability, and
benefits to the Postal Service and assists     Lookup INstrument
top management in reaching their               The Mail Evaluation, Readability, and
goals. Highlighted below are three Value       Lookup INstrument (MERLIN) is designed
Propositions for mail processing facilities,   to improve the quality of mail, automate
highway transportation routes, and city        acceptance, make verification consistent,
letter carrier operations.                     and ensure appropriate revenue collec-
                                               tion. Operationally, MERLIN machines
Evaluation of                                  determine whether individual mailings
Mail Processing Plants                         qualify for the discounts claimed by the
The Postal Service spends more than            mailer. The OIG issued a series of eight
$20 billion annually on the mail process-      reports on MERLIN utilization focusing
ing infrastructure. It continues to create     on specific BMEUs and detached mail
a flexible logistics network that reduces      units. Targets were established to mea-
Postal Service and customers’ costs,           sure MERLIN use based on the number
                                               of qualified mailings processed. We




                                                                                             April 1 – September 30, 2005 | 
                                     concluded that mail quality has improved                   Evaluation of BMC Highway
                                     and the appropriate revenues assessed
                                     were collected, although the Postal Ser-                   Transportation Routes
                                     vice was not fully utilizing MERLIN by not                 The Postal Service spends more than
                                     achieving established targets for larger                   $2.6 billion annually for contracted high-
                                     mailings.                                                  way transportation to move mail across
                                                                                                nationwide highway networks. A major
                                     We conducted a MERLIN satisfaction                         component of the Postal Service’s high-
                                     survey of Postal Service employees who                     way transportation network is the BMC
                                     operate this equipment. Respondents                        network. It services the nation’s 21 BMCs
                                     generally indicated that MERLIN has                        and other processing facilities. The BMC
                                     improved mail quality and treats mailers                   network transports magazines, advertis-
                                     in a fair and consistent manner. Survey                    ing, and merchandise shipped by major
                                     respondents believed MERLIN provides                       mailers, such as publishers, catalog com-
                                     excellent barcode readability analysis for                 panies, and on-line retailers.
                                     mailings and verifies more aspects of a
                                     mailing than the previous manual pro-                      We signed a pilot Value Proposition
                                     cess. However, they said that the process                  agreement with the Vice President of
                                     of verifying mailings with MERLIN took                     Network Operations Management (NOM)
                                     more time than the previous manual pro-                    in April 2005. Under this agreement, we
                                     cess, and that MERLIN requires regular                     committed to completing four audits on
                                     maintenance.                                               BMC highway transportation routes. We
                                                                                                examined about 600 surface transporta-
                                     In addition, the survey responses showed                   tion contracts covering more than 5,400
                                     that the training provided for MERLIN did                  surface trips, issued four value proposi-
                                     not always cover interpreting reports or                   tion reports, recommended elimination of
                                     verifying mailings. This survey provides                   more than 140 scheduled surface trips,
                                     a feedback mechanism that Postal                           and identified potential savings exceeding
                                     Service managers can use to monitor                        $14 million.
                                     and improve MERLIN, thereby aiding in
                                     controlling costs. Postal Service manage-                  The Postal Service agreed with close to
                                     ment generally agreed with the survey                      99 percent of all trip reduction, elimina-
                                     results.                                                   tion, or consolidation proposals. Our
                                                                                                Value Proposition efforts helped Postal
                                                                                                Service management to optimize its sur-
                                                                                                face network that resulted in savings. We
                                                                                                will continue our work under this agree-
                                                                                                ment in FY 2006.
                                                                                                Dating back to September 2004, we
                                                                                                issued 10 audit reports under our national
                                                                                                audit project covering BMC Highway
                                                                                                Transportation Routes. Working with
                                                                                                Postal Service headquarters, area, and
                                                                                                plant transportation officials, we identified
                                                                                                351 bulk mail transportation trip elimina-
                                                                                                tions, consolidations or modifications
                                                                                                — potentially resulting in savings of more
                                                                                                than $36 million over the life of the con-
We identified 351 bulk mail transportation trip eliminations, consolidations or modifications
— potentially resulting in savings of more than $36 million over the life of the contracts.




  | Semiannual Report to Congress
                                                                                                                                                               MANAGEMENT CHALLENGES
tracts. The Postal Service eliminated or        a goal of 100 percent implementation of
modified most of these 351 trips without        AMSOP in FY 2005 at all facilities using
negatively affecting service or operational     the Delivery Operations Information Sys-
flexibility.                                    tem (DOIS) that was deployed in 2002.
The transportation network is dynamic
and fluid, and transportation requirements
continually change. This was especially
evident immediately after Hurricanes
Katrina and Rita in August and Septem-
ber 2005, respectively, when all Postal
Service areas were reassessing the trans-
portation needs of the affected areas,
redirecting transportation to locations
such as Houston, and quickly implement-
ing changes in surface transportation
service. We will continue to work with
the Postal Service to assess its changing
transportation needs.

City Letter Carrier Operations
Controlling delivery costs is critical for
the Postal Service because mail deliv-
ery requires a significant infrastructure
investment, especially as delivery points       In the office, letter carriers manually case (sort) mail. The majority of the letter mail, however,
increase each year with population              now comes in delivery sequence. It is presorted on automated equipment and does not require
growth.                                         casing.

Delivery operations are the Postal              At the end of FY 2005, 100 percent of the
Service’s largest cost center, making up        DOIS facilities (6,198) have implemented
42 percent of the total labor hours in the      AMSOP. DOIS provides delivery super-
FY 2006 Field Operating Budget. These           visors and managers with data (such
are hours that the city and rural letter car-   as workload status reports and carrier
riers expend casing mail in the office and      performance information) to improve
delivering mail on routes. Salaries and         daily delivery operational performance.
benefits for city carriers are budgeted at      The system also allows the supervisors
more than $16 billion, which represents         and managers to determine the number
34 percent of the Postal Service’s salaries     of work hours required to deliver the
and benefits in the FY 2006 Field Operat-       mail on daily carrier routes. Managed
ing Budget.                                     Service Points (MSP), a part of DOIS, is
In FY 2004, the Postal Service began            a computerized tool designed to monitor
implementing early morning standard             consistency of delivery time and enhance
operating procedures (AMSOP), designed          street management.
to assist the managers and postmasters          Beginning in FY 2005, AMSOP was
in making better business decisions for         enhanced with standard delivery man-
city delivery operations (for example, esti-    agement practices called the Lean
mating work hours accurately). The Vice         Enterprise. This new initiative will establish
President of Delivery & Retail established      standard practices for managing all deliv-




                                                                                                                                 April 1 – September 30, 2005 | 
                                     ery and retail functions at the unit level      Postal Service in reducing the cost of
                                     and oversight responsibilities at each tier     delivery.
                                     of management above the unit level. A
                                     key component of this standardization           Delivery Vehicles
                                     is identifying the “vital few” delivery units   The Postal Service supports its delivery
                                     — those units with the largest opportunity      network with a vehicle fleet of about
                                     for improvement that require specific           212,000 vehicles. The fleet travels 1.19
                                     management actions. In those units the          billion miles each year to an increasing
                                     AMSOP, rural delivery standard operat-          number of delivery points. It also has
                                     ing procedures, and customer service            a vehicle management infrastructure
                                     reviews will serve as tools to aid senior       designed to ensure operational readi-
                                     management in identifying problems and          ness, safety, and reliability. Approximately
                                     developing suitable remedies.                   188,000 of its vehicles are used for mail
                                                                                     delivery and collections.
                                     One of our initial Value Proposition
                                     Agreements is with the Vice President of
                                     Delivery & Retail to assess management                 FY 2004 Vehicle
                                     of City Letter Carrier Operations. During         Supplier Expense Analysis
                                     this reporting period, we expanded our
                                     ongoing assessment of city letter carrier
                                     operations to the Pacific and Great Lakes
                                     Areas.
                                     We assessed the management of city
                                     letter carrier operations in the Santa
                                     Ana, San Diego, and Chicago Districts
                                     in 18 delivery facilities (six per district).
                                     These audits showed that management
                                     can improve operations by adequately
                                     reviewing the daily mail volumes and data
                                     in DOIS when determining daily work
                                     hours for each carrier’s route to main-
                                     tain efficiency and cost, using the MSP
                                     information, and documenting carriers’
                                     unauthorized overtime occurrences.
                                                                                     In addition to these vehicles, the Postal
                                     Our audits determined that delivery unit        Service augments its delivery fleet with
                                     supervisors and managers in these three         leased vehicles obtained through local
                                     districts did not adequately match work         commercial sources or the General
                                     hours with workload (mail volume). We           Services Administration (GSA). In 2004,
                                     identified almost 216,000 unjustified work      the Postal Service spent $564 million on
                                     hours in these three districts valued at        delivery vehicles ($184 million for vehicle
                                     about $5.5 million total in unrecoverable       purchasing, $48 million for leasing, and
                                     costs for five-month periods in 2004 and        $332 million for parts and maintenance).
                                     2005. We are continuing to review city let-
                                                                                     We assessed the utilization of GSA-leased
                                     ter carrier operations in the Great Lakes
                                                                                     vehicles used in support of delivery
                                     Area, and plan to conduct additional
                                                                                     operations, and determined that manage-
                                     audits in delivery operations to assist the
                                                                                     ment needs to more effectively use Postal
                                                                                     Service-owned delivery vehicles. Of




10 | Semiannual Report to Congress
                                                                                                                                        MANAGEMENT CHALLENGES
nine Postal Service areas, seven leased        particularly as these needs change and
GSA vehicles for delivery, even though         technology becomes obsolete.
Postal Service Headquarters identified a
                                               We conducted a pilot audit of Public
nationwide overage of 787 Postal Service-
                                               Branch Exchange (PBX) security and tele-
owned vehicles.
                                               phone bill monitoring in a Southwest Area
Leasing excess GSA vehicles occurred           district, which has 1,668 local telephone
primarily because management did not           lines. We found overpayments, duplicate
routinely enforce procedures for lease         billings, and unnecessary telephone
approvals and justifications, and did not      lines, resulting in a total financial impact
evaluate existing leases to determine          of approximately $361,716. Further, we
current vehicle requirements. Eliminating      estimated the district could save an addi-
these GSA leases would save the Postal         tional $286,356 by reassessing telephone
Service more than $1.7 million annually or     lines at facilities we did not visit during our
more than $5.3 million over the next three     audit. Management agreed to disconnect
years.                                         and suspend unnecessary telephone
                                               lines and to conduct quarterly reviews of
We plan to further assess the Postal
                                               the telephone lines in the district audited.
Service’s ability to control costs through
improved utilization, efficient use, and       Subsequent to the pilot audit, we con-
proper maintenance of delivery vehicles        ducted a nationwide audit and found that
by conducting a nationwide audit on            the Postal Service could capture savings
the utilization of delivery vehicles. Areas    by performing a comprehensive inventory
to be addressed include eliminating            and assessment of local telephone line
under-utilized Postal Service-owned or         needs in accordance with existing policy.
leased vehicles, using Postal Service-         During the audit, we verified 677 local
owned vehicles instead of leasing (when        telephone lines at 100 randomly selected
available), and reducing maintenance           facilities and found that 29 percent of the
expenses through timely preventive main-       lines were not needed. Additionally we
tenance.                                       verified 217 lines at 29 additional facilities

Voice Systems Cost Savings
The Postal Service is committed to pro-
viding a high-quality, secure, reliable, and
cost-effective voice and data telecom-
munications environment to its nearly
38,000 facilities nationwide. A robust tele-
communications network is critical to the
business needs of the Postal Service.
In FY 2004, the Postal Service spent more
than $107 million for telecommunications
services, including telephone and cable,
telegrams, and other communication ser-
vices. The Postal Service must constantly
reassess its telecommunications network
needs to ensure that optimal services
are provided to meet its business needs,       The Postal Service must constantly reassess its
                                               telecommunications network needs to ensure that optimal
                                               services are provided to meet its business needs.




                                                                                                         April 1 – September 30, 2005 | 11
                                     and found 46 percent of the lines were         awards and unusual billing activity. The
                                     not needed.                                    Postal Service has more than $250 mil-
                                                                                    lion in active contracts supporting VMFs
                                     We commend the Postal Service for their
                                                                                    nationwide.
                                     support and proactive response to this
                                     audit. During our audit, some districts        In a major services investigation, we
                                     began to reassess their telephone needs        determined that a California contractor
                                     and terminate unneeded lines. So far,          billed the Postal Service for work it did
                                     four districts have identified 1,043 local     not perform and for work the contract did
                                     telephone lines for termination. The total     not allow. The company was supposed
                                     financial impact is approximately $9.8 mil-    to provide services for facilities in Califor-
                                     lion. Management agreed to strengthen          nia and North Carolina, and eventually
                                     internal controls and processes, and           billed the Postal Service more than $21
                                     to establish a centralized control point       million. The review identified more than
                                     to manage voice services. We have an           $1.1 million in fraudulent billing. As part of
                                     additional telecommunications audit in         settlement negotiations in June 2005, the
                                     progress, focusing on cost reduction.          company agreed to pay all of this money
                                                                                    back to the Postal Service.
                                     Contract Issues
                                                                                    Supplies Portfolio. The Postal Service
                                     One of the OIG’s mandates is to investi-       issued more than 3,000 contract actions
                                     gate contract fraud. Our contract fraud        for supplies with a commitment value of
                                     investigations resulted in more than $58       more than $1.2 billion during FY 2005.
                                     million in fines, restitutions, recoveries,    As a result of our investigation, a Texas
                                     and settlements in FY 2005. We continue        medical equipment company, and two
                                     to work with the Postal Service’s Supply       of its former employees, were indicted
                                     Management team to suspend and debar           for filing more than $1.4 million in false
                                     suppliers from government contracting          billing claims to the Postal Service. The
                                     when warranted. We highlight results from      company submitted excessive rental fees
                                     these investigative efforts in this section.   to the Department of Labor’s Office of
                                     Our Contract Fraud Investigations pro-         Workers’ Compensation Programs for
                                     gram and our Supply Management and             medical equipment. In one instance, the
                                     Facilities audit teams provide oversight       Postal Service rented a piece of equip-
                                     of the Postal Service’s active contracts,      ment for $495 a week and eventually paid
                                     which totaled more than $24 billion in         more than $500,000, when the purchase
                                     FY 2005. To assess the Postal Service’s        price of the unit was only $225.
                                     management of acquisitions and con-            Facilities Portfolio. The Postal Service
                                     tracts, we have various initiatives focusing   issued more than 32,000 facilities-related
                                     on each of the following five Postal Ser-      contract actions with a commitment value
                                     vice portfolios:                               of approximately $1.27 billion in FY 2005.
                                     Services Portfolio. The Postal Service         In August 2005, Hurricane Katrina swept
                                     issued more than 4,000 contract actions        into the Gulf Coast region, causing an
                                     for services with a commitment value of        estimated $128 million in damages to the
                                     approximately $456 million during              Postal Service’s infrastructure. More than
                                     FY 2005. One of our initiatives includes       $69 million of that amount will be attrib-
                                     proactive contract file reviews of all         uted to the repair and replacement of
                                     Vehicle Maintenance Facility (VMF) billing     damaged facilities. As a result, we estab-
                                     records to identify suspicious contract        lished a task force comprised of auditors




12 | Semiannual Report to Congress
                                                                                                                                                         MANAGEMENT CHALLENGES
and investigators to identify potential
fraud, waste, and abuse, especially in
connection with contracts associated with       Hurricane Katrina swept into the Gulf Coast region causing an estimated
the Gulf Coast recovery and rebuilding          $128 million in damages to the Postal Service’s infrastructure.
projects.
Transportation Portfolio. The Postal            a financial condition and capability review,
Service issued more than 5,000 trans-           and performed a limited scope review of a
portation-related contract actions with a       contractor’s purchasing system.
commitment value of approximately $851
                                                We considered most of the propos-
million in FY 2005. An OIG initiative in this
                                                als acceptable for negotiating fair and
area is focusing on potential fraud in high-
                                                reasonable rates; however, the claims
way contract route (HCR) contracts as
                                                were not considered acceptable as a
well as other contracts for surface and air
                                                basis for negotiation of a fair and reason-
transportation assets. For example, one
                                                able settlement. We identified a total of
company failed to pass almost $1 million
                                                $20 million as potential contract savings.
in fuel rebates to the Postal Service and
                                                Included in the $20 million was a review
cashed more than $170,000 in contract
                                                of an $84 million firm fixed-price proposal
payments to which it was not entitled. The
                                                for the Universal Coding System. The
president of the company was indicted in
                                                audit disclosed more than $12 million
April 2005, and the company itself was
                                                in questioned costs and $988,651 in
sold to another shipping company.
                                                unsupported costs. The questioned costs
Mail Equipment Portfolio. The Postal            consisted primarily of excessive proposed
Service issued more than 800 mail equip-        direct labor hours, unreasonable hedging
ment contract actions with a commitment         costs and exchange rates, and indirect
value of approximately $732 million in          costs based on erroneously applied over-
FY 2005. We monitor contractual activ-          head, general, and administrative rates.
ity involving mail sorting and processing       Unsupported costs were primarily com-
equipment, address-recognition technol-         prised of proposed warranty expenses
ogy, and bioprotection. In FY 2005, our         that were based on the application of an
investigations were key factors in the          arbitrary warranty rate.
debarment of eight companies and 14
                                                Further, the audit results were qualified
individuals, up from only two in FY 2004.
                                                to the extent that additional costs may
We also performed audits and reviews            be questioned pending the contracting
on Postal Service contracts. Contract           officer’s determination on the appropriate-
reviews completed during the reporting          ness of the continued use of a pricing
period follow:                                  agreement with the subcontractor for
                                                labor and travel costs.
Contract-related audits. We issued
11 contract-related audits during the           Postal Automated Redirection .
reporting period. The audits evaluated          System’s Contract Incentives. We
cost proposals associated with the Uni-         identified opportunities to improve
versal Coding System, Automated Postal          management of the Postal Automated
Center, Biohazard Detection System              Redirection System’s (PARS) contract.
Dual Identifier, and Biohazard Detection        Specifically, the PARS Phase 1 incentive
System Consumable Replenishment. We             pool structure allowed the contractor to
also audited certified price adjustment         earn all available performance incentives
claims, verified incurred costs, conducted




                                                                                                                          April 1 – September 30, 2005 | 13
                                     without having met all key performance
                                     requirements.
                                                                                    Revenue
                                                                                    A management challenge facing the
                                     Also, while not contractually obligated,       Postal Service is increasing revenue while
                                     Postal Service officials increased the con-    streamlining core services and provid-
                                     tract value by more than $1.5 million and      ing greater value to its customers. We
                                     did not validate the PARS performance          believe there are opportunities to increase
                                     in accordance with contract provisions.        revenue in the areas of establishing
                                     Finally, we could not determine whether        customized mail agreements, collecting
                                     the adjustment for the contractor’s non-       package surcharges, and improving the
                                     performance was appropriate.                   management of vending equipment sales
                                     Postal Service management agreed with          and service. We further believe the Postal
                                     the report recommendations but did not         Service could do more to ensure that all
                                     agree with how these findings were pre-        revenue is being collected, recorded, and
                                     sented. They believe performance testing       reported accurately; and take appropriate
                                     throughout Phase 1 showed that the             steps to strengthen internal controls to
                                     contractor exceeded PARS performance           minimize risks relating to financial transac-
                                     objectives. In addition, Postal Service        tions.
                                     management said the addition of $1.5
                                     million was to compensate the contrac-         Customized Mail Agreements
                                     tor for improved system performance, as        To generate revenue, the Postal Service
                                     measured by a cost model.                      began using customer unique pricing
                                                                                    techniques via its International Custom-
                                     Contract Invoice Approval Pro-                 ized Mail (ICM) agreements in 1992. ICM
                                     cedures. Information Technology (IT)           agreements are contracts between the
                                     requested an OIG audit of the IT help          Postal Service and mailers for a period of
                                     desk contract. The results showed that         one to two years. These agreements rep-
                                     the Postal Service needs to improve            resent individually negotiated discounts
                                     procedures for reviewing, certifying, and      with mailers within certain categories of
                                     paying invoices. For example, Postal Ser-      outbound international mail in exchange
                                     vice officials did not ensure that adequate    for meeting prescribed annual minimum
                                     data were captured and maintained to           revenue or volume commitments.
                                     allow a comprehensive analysis of billed
                                     tickets. Lacking adequate data, the con-       In FY 2003, the Postal Service decided
                                     tracting officer’s representative certified    as a matter of public policy, to hold rates
                                     invoices for payment without determining       steady until FY 2006, realizing that as the
                                     whether billed help desk tickets were pay-     costs of international products rose, the
                                     able in accordance with the contract.          contribution levels for ICM agreements
                                                                                    decreased. In response, Postal Service
                                     The contract specifies that a contact to       management made changes to the pro-
                                     the help desk results in one ticket, yet the   gram that eliminated several international
                                     vendor often generated multiple tickets        mail categories and reduced some ICM
                                     from one contact. As a result, we identi-      agreement terms.
                                     fied paid tickets that appeared to be billed
                                     outside of the contract terms.                 During this reporting period, we issued
                                                                                    a final report on ICM agreements stat-
                                     Postal Service management reviewed             ing that although the ICM program had
                                     the issue and has improved the process         made a positive contribution to the Postal
                                     by establishing a report, which identifies     Service, management controls could be
                                     each billable case.




14 | Semiannual Report to Congress
                                                                                                                                                               MANAGEMENT CHALLENGES
further improved. We identified $905,438          the Postal Service’s surcharge proce-
in additional revenue that Postal Service         dures with three private companies. Our
management could have collected by                joint efforts with the Postal Service identi-
enforcing of guarantee clauses from mail-         fied options to ensure correct surcharge
ers who did not meet their commitments.
Postal Service management agreed with
our recommendations and has initia-
tives planned or completed addressing
the issues in the report, but they did not
agree with our potential monetary ben-
efits. Implementing our recommendations
could help prevent the problem from
recurring.

Collecting Package Surcharges
Each day, more than seven million Ameri-
cans generate revenue for the Postal
Service by visiting post offices, branches,
and contract postal units to buy stamps,
mail packages, and collect mail from              Our audit found two districts that did not collect the correct revenue from surcharges
their post office boxes. It is critical for the   on 234 Priority Mail and Parcel Post packages during the period we reviewed.
Postal Service to monitor retail operations
to ensure that all revenue is being col-          revenue is being received such as: (1)
lected, recorded, and reported.                   enhancing the Point of Service (POS)
                                                  ONE system to prompt retail associ-
We initiated an audit to determine whether        ates to enter package dimensions when
the Postal Service received the correct           assessing surcharges; and (2) revising the
surcharge revenue for Priority Mail and           Postal Service Internet rate calculator to
Parcel Post Packages from retail sales            require the customer to enter the package
during FY 2005, in the Philadelphia and           dimensions to estimate the shipping cost.
Pittsburgh districts.
                                                  POS ONE is an electronic system that
Our audit found neither district collected        records sales and payment transactions
the correct revenue from surcharges on            at retail facilities. In FY 2006, we plan to
234 Priority Mail and Parcel Post pack-           review POS ONE and other major rev-
ages during the period we reviewed.               enue components of Postal Service retail
Although retail associates were trained to        operations.
assess surcharges, the current training
does not include hands-on demon-                  Vending Equipment Sales
strations on how to properly measure
packages. Further, retail associates              and Service
infrequently handled packages requir-             We assessed the accuracy of the Vend-
ing surcharges. As a result, the districts        ing Equipment Sales and Service (VESS)
missed potential additional surcharge             System data in the Atlanta District. VESS
revenue of $24,600.                               is an online database that offers real-time
                                                  tracking of product sales, miscellaneous
Resulting from our audit on parcel sur-           costs, and maintenance and service for
charges and discussions with Postal               vending machines. Postal Service officials
Service management, we benchmarked                use VESS information to ensure they




                                                                                                                                April 1 – September 30, 2005 | 15
                                     reach revenue goals and keep work hour                     Financial Investigations
                                     costs within specified guidelines.
                                                                                                We also conduct financial investiga-
                                     We found that the Atlanta District could                   tions. They cover a wide range of
                                     improve the accuracy of VESS data. Spe-                    activity, including embezzlement, theft,
                                     cifically, Self-Service Vending Program                    misconduct, falsification of records,
                                     managers did not adequately manage                         and conversion and misuse of Postal
                                     VESS data, and did not ensure sales and                    Service property. Financial investigations
                                     service information were accurate and                      frequently involve employees and con-
                                     transferred timely to the Postal Service                   tractors.
                                     financial systems during FYs 2003 and
                                                                                                One case during the reporting period
                                     2004. As a result, during that time period,
                                                                                                involved a postmaster who allegedly
                                     Atlanta District VESS sales data, when
                                                                                                embezzled $147,000 in Postal Ser-
                                     compared to the Postal Service Form
                                                                                                vice funds and is now facing criminal
                                     8130, Vending Equipment Sales and
                                                                                                indictment. Another case involved a
                                     Service Daily Report, was understated by
                                                                                                maintenance supervisor who may have
                                     approximately $1.31 million.
                                                                                                submitted more than $200,000 in fraudu-
                                                                                                lent work repair invoices. The supervisor
                                                                                                was arrested by investigators and the
                                                                                                matter is pending prosecution.




We assessed the accuracy of the Vending Equipment Sales and Service (VESS) System data in the
Atlanta District.




16 | Semiannual Report to Congress
                                                                                                                             MANAGEMENT CHALLENGES
Human Capital                                  Resolving Workforce and
Maximizing human capital resources by          Workplace Issues
maintaining an efficient work force is the     During this reporting period, we com-
Postal Service’s keystone to capitalizing      pleted seven audits on complaints of
on performance and productivity. Add-          hostile work environments at Postal
ing to that challenge is creating a flexible   Service facilities. We found hostile work
workforce as part of the Evolutionary          environments did not exist at these
Network Development (END), particularly        facilities as a whole, but some employees
when more than 80,000 jobs have been           believed the management style of some
eliminated through attrition over the past     supervisors at these locations was offen-
four years. Further, the Postal Service’s      sive and perceived their actions as hostile
ability to resolve workforce and workplace     in nature. We also found that Postal
issues, including addressing hostile work      Service management, in general, quickly
environment complaints and controlling         responded to employee complaints. They
costs associated with the Office of Work-      took the steps necessary to improve the
ers’ Compensation Programs (OWCP),             environment, including training, hold-
are critical to its success.                   ing stand-up talks for employees, and
                                               reassigning supervisors who acted inap-
We conduct reviews after we receive
                                               propriately.
complaints of a hostile work environment.
In each location reviewed for hostile          We also reviewed employee complaints of
work environment issues, we found that         nepotism, favoritism, and mismanagement
improvements to the environment would          by Postal Service officials at Puerto Rico
be beneficial.                                 facilities located in the Caribbean District
                                               under the New York Metro Area. The audit
Our reviews also found that labor rela-
                                               found these managers did not always
tions have improved. This is evidenced
                                               follow Postal Service policies and pro-
by the reduction in grievances, filed and
                                               cedures regarding personnel practices.
backlogged, between the Postal Service
                                               Area and district management initiated
and the four major unions (the American
                                               or agreed to initiate corrective actions to
Postal Workers Union, the National Asso-
                                               address the 18 issues identified.
ciation of Letter Carriers, the National
Postal Mail Handlers Union, and the            We also reviewed filed and backlogged
National Rural Letter Carriers’ Union).        grievances from FY 1999 through 2004,
While the Postal Service experienced a         and found significant reductions over the
significant increase in known costs related    last few years. The grievance-arbitra-
to labor-management issues for FY 2003,        tion process generally consists of three
costs decreased more than five percent         steps to resolve grievances. The process
in FY 2004. This decline in costs is           includes a fourth step, available at the
expected to continue due to the reduction      national level, but it is used only when
in the total number of grievances back-        a case of contract interpretation is at
logged and filed, and by settling them         issue. The process also allows appeals of
at the lowest possible level. In addition      unresolved grievances to go to arbitration,
to potential cost savings, relationships       where the Postal Service and the union
among Postal Service management,               select an arbitrator who makes a binding
employees, and unions can be expected          decision.
to improve.




                                                                                              April 1 – September 30, 2005 | 17
                                     The review showed that the Postal Ser-       the mechanism by which the costs of
                                     vice experienced an overall 21 percent       compensation for work-related injuries
                                     decrease in the number of grievances         and death are billed annually to employ-
                                     the four major unions filed from FYs         ing agencies. The chargeback billing
                                     1999 through 2004; with a 15 percent         period is from July 1 of one year to June
                                     decrease occurring from FYs 2003 to          30 of the following year.
                                     2004 alone. Even more significant was
                                                                                  In FY 2005 the Occupational Safety
                                     the overall 83 percent decrease in the
                                                                                  and Health Administration (OSHA) injury
                                     number of backlogged grievances from
                                                                                  and illness frequency rate for the Postal
                                     FYs 1999 to 2004, and the 66 percent
                                                                                  Service is 5.74 per 100 employees. This
                                     decrease just from FYs 2003 to 2004.
                                                                                  is down 12 percent from last year and
                                     We attribute the reduction in griev-         equates to 5,646 fewer OSHA injuries
                                     ances largely to several initiatives the     and illnesses. In the past four years,
                                     Postal Service and its four major unions     the Postal Service has reduced the total
                                     successfully implemented to improve
                                     labor-management relations and the
                                     grievance-arbitration process. One
                                     initiative is a new performance-based
                                     pay system to evaluate and hold Postal
                                     Service managers and supervisors
                                     accountable for improving the labor-
                                     management climate. Another is the joint
                                     development of manuals to provide all
                                     parties with a better understanding of the
                                     national labor relations agreements.
                                     We plan to review the quality of opera-
                                     tions at the six Grievance-Arbitration
                                     Processing Centers to determine whether
                                     they are operating cost-effectively. These
                                     centers log grievance appeals in the
                                     Grievance-Arbitration Tracking System
                                     and schedule arbitration hearings for the
                                     four major unions.

                                     Controlling Costs Related to                 A significant cost continuing to impact the Postal Service is workers’
                                     Office of Workers’                           compensation expenses for injured workers.

                                     Compensation Programs
                                     A significant cost continuing to impact      number of OSHA injuries and illnesses by
                                     the Postal Service is workers’ compensa-     29,110, a 41 percent reduction.
                                     tion expenses for injured workers. The       The Postal Service represented about
                                     sheer size of the workforce, and nature of   46 percent of the total federal workforce
                                     work performed, are the primary factors      cases that participated in the OWCP. The
                                     that made the Postal Service the largest     Postal Service is also the largest payee to
                                     participant in the Department of Labor’s     OWCP, with approximately $818 million in
                                     (DOL) OWCP in chargeback year (CBY)          payments for the same year. This amount
                                     2005. OWCP’s Chargeback System is            is more than 35 percent of the $2.3 billion




18 | Semiannual Report to Congress
                                                                                                                               MANAGEMENT CHALLENGES
in total federal workers’ compensation           lion annually because many providers
payments.                                        bill the OWCP directly rather than the
                                                 preferred provider. This occurred because
While Postal Service workers’ compensa-
                                                 there was no provision in the Memoran-
tion payments decreased slightly over the
                                                 dum of Understanding with the OWCP
last two years, they rose by approximately
                                                 that medical bills can only be forwarded
30 percent over the last five years — from
                                                 to the preferred provider. Postal Service
$638 million in 2000 to $818 million in
                                                 management is working with the DOL
2005. Postal Service officials attributed
                                                 and the preferred provider to remedy this
the decreases to their safety program,
                                                 issue, and they anticipate that this will
increased payment accuracy, and anti-
                                                 substantially increase the realized savings.
fraud work.
                                                 We also reviewed the Postal Service’s
At the same time, the administrative fees
                                                 schedule award costs in the Pacific
that OWCP charges the Postal Service
                                                 Area, and found that the Postal Service
increased 33 percent, from $33 million in
                                                 was overcharged about $291,200 and
2000 to $44 million in 2005. Administra-
                                                 undercharged about $251,200 in CBY
tive fees represent the amount OWCP
                                                 2004. Schedule award compensation
assesses for managing workers’ compen-
                                                 is payable to employees based on the
sation claims. The amount paid in 2005
                                                 severity of the impairment for the partial
is approximately five percent of the Postal
                                                 loss or loss of use of a certain member,
Service’s total medical and compensation
                                                 organ, or function of the body due to an
costs.
                                                 OWCP-accepted injury. The over- and
Finally, the Postal Service records, as          under-charges represent 26 percent of
a liability, the present value of all future     the Pacific Area employees who received
payments it expects to make to those             schedule award payments.
employees receiving workers’ compensa-
                                                 In addition, the Postal Service reviewed
tion. At the end of FY 2004, the estimated
                                                 records of more than $173.5 million in
total liability for future workers’ compen-
                                                 billings to OWCP from January 1, 2000,
sation costs is $7.5 billion. The estimated
                                                 to September 30, 2005 using a database
total claim costs are based upon the
                                                 that we developed to help identify poten-
severity of the injury, the age of the injured
                                                 tial fraudulent billing schemes. Since its
employee, the assumed life expectancy
                                                 implementation in July 2003, the Postal
of the employee, the trend of experience
                                                 Service discovered more than $3 million
with such an injury, and other factors.
                                                 in duplicate medical billings, of which
We examined a contract between the               $408,000 was credited back to the Postal
Postal Service and a preferred provider          Service.
organization supplying injury com-
                                                 We have several more audits planned
pensation medical bill review services.
                                                 relating to OWCP issues including reviews
The review determined, and verified,
                                                 of the workers’ compensation claims
$2.2 million in cost savings claimed and
                                                 adjudication process, the administrative
realized by the Postal Service, due to the
                                                 fee formula, and the causes of DOL dupli-
contractor’s billing reviews from March
                                                 cate payments.
2001 through July 2004.
                                                 We also investigate allegations of work-
According to the preferred provider and
                                                 ers’ compensation claimant and provider
Postal Service officials, the savings did
                                                 fraud. During this reporting period, we
not reach the anticipated level of $30 mil-
                                                 initiated more than 2,006 claimant and




                                                                                                April 1 – September 30, 2005 | 19
                                 provider fraud investigations. These
                                 healthcare fraud investigations resulted in
                                                                               Preserve Integrity
                                 more than $20 million in cost avoidances      and Security
                                 and approximately 169 administrative per-     A significant management challenge fac-
                                 sonnel actions, including removals, letters   ing the Postal Service is preserving the
                                 of warning, and claims terminations.          integrity and security of the nation’s mail
                                 In April 2005, we spearheaded a Federal       system and safeguarding its more than
                                 Workers’ Compensation (FWC) Forum to          700,000 employees, nearly 38,000 facili-
                                 reduce costs and combat fraud related         ties, and about 212 billion pieces of mail
                                 to the Federal Employees Compensation         in FY 2005. The integrity of processes
                                 Act (FECA) across the federal govern-         and personnel is an essential element
                                 ment. To date, 18 federal OIGs have           for safeguarding Postal Service prod-
                                 agreed to participate. The participating      ucts, customers, services, and assets.
                                 agencies annually spend more than             This includes maintaining the integrity of
                                 $2 billion dollars in OWCP benefits, which    payment processes. It also includes the
                                 is 90 percent of all government OWCP          security and privacy of electronic informa-
                                 costs. The FWC Forum has the following        tion maintained within the Postal Service’s
                                 objectives:                                   network infrastructure and voice systems.
                                                                               Ultimately, this integrity helps maintain a
                                 n   Adopt best business practices to          stable and sound Postal Service.
                                     effectively manage and reduce work-
                                     ers’ compensation costs.                  IMPAC and Voyager Fleet Cards
                                 n   Identify measures that may substan-       In addition to acquiring goods and ser-
                                     tially reduce these costs.                vices through contracts, the Postal
                                                                               Service uses International Merchant Pur-
                                 n   Form an alliance with other OIGs to       chase Authorization Cards (IMPAC) and
                                     address potential fraud, waste, and       Voyager Fleet Cards. The IMPAC pur-
                                     mismanagement within the FECA             chase card program processed
                                     program.                                  transactions totaling approximately
                                 Representatives of this forum will present    $405 million in FY 2005 and earned the
                                 investigative best practices at upcoming      Postal Service more than $2.8 million in
                                 President’s Council for Integrity and Effi-   refunds during 2005. The Voyager Fleet
                                 ciency and Executive Council for Integrity    Card Program pays for the fuel, oil, repair,
                                 and Efficiency meetings.




                                                                               The Voyager Fleet Card Program pays for the fuel, oil, repair,
                                                                               maintenance, and washing of more than 220,000 Postal Service vehicles.




20 | Semiannual Report to Congress
                                                                                                                                              MANAGEMENT CHALLENGES
maintenance, and washing of more than          Using a facility risk-rating model, the
220,000 Postal Service vehicles. It also       USPIS implemented several initiatives
pays for fuel-only purchases for more          to identify potential vulnerabilities of
than 26,000 HCR contractor vehicles. In        Postal Service facilities through security
FY 2005, this program processed more           reviews and observation of mail process-
than $332 million in purchases, with doc-      ing conditions. The OIG, in coordination
umented savings and cost avoidance to          with the USPIS, plans to assess security
the Postal Service in excess of more than      programs and report on the effectiveness
$35 million.                                   of security in place for facility, employ-
                                               ees, customers, and mail. Additionally,
In a Dallas area investigation, special
                                               together we will continue reviewing new
agents identified and arrested several
                                               initiatives for detection and protection
civilians and Postal Service employees
                                               systems and the development, implemen-
allegedly using stolen Voyager accounts
and personal identification numbers (PIN)
to purchase fuel in exchange for cash. In
another incident in New York, our inves-
tigators identified a gas station manager
who processed more than $436,800 in
fraudulent Voyager transactions. This
manager admitted stealing Voyager
account and PIN information to process
fraudulent fuel purchases. He was even-
tually prosecuted in federal court and
ordered to pay back the entire amount to
the Postal Service as restitution.

Oversight of Investigative
Activities                                     The OIG provides an independent assessment of USPIS programs,
                                               including related investigative and administrative processes.
Under the Inspector General Act of 1978,
as amended, we are required to provide
oversight of the USPIS. To accomplish          tation, and coordination of emergency
this statutory requirement, we conduct         preparedness plans. We are reviewing the
program audits and reviews of the USPIS.       Postal Service’s and USPIS’s emergency
This work provides an independent              management policies and training efforts
assessment of USPIS programs, includ-          to ensure that they are adequate and fol-
ing related investigative and administrative   low Department of Homeland Security
processes. The team performing these           and executive guidance.
reviews is supplemented by subject mat-
                                               We will continue reviewing USPIS
ter experts with extensive investigative
                                               programs and operations to ensure
experience. Our audits and reviews of the
                                               investigative and related administrative
USPIS have resulted in recommendations
                                               processes efficiently and effectively sup-
to strengthen internal and management
                                               port their mission.
controls, including the quality, standards,
and management oversight of investiga-
tive and related administrative processes.




                                                                                                               April 1 – September 30, 2005 | 21
                                     Vulnerability of International Mail            During the audit, our staff joined a USPIS
                                                                                    task force to interdict improper use of
                                     Transportation                                 Postal Service equipment. The task force
                                     Postal Service officials continue to be        identified instances of unauthorized use
                                     concerned with transportation security         of Postal Service equipment by ETOEs at
                                     associated with Extraterritorial Offices of    international airports in New York, New-
                                     Exchange (ETOEs) operations. ETOEs are         ark, Chicago, Miami, Los Angeles, and
                                     commercial businesses affiliated with for-     San Francisco.
                                     eign postal administrations that compete
                                     in the international shipping and delivery     The task force concluded that ETOE use
                                     market with the Postal Service and com-        of Postal Service mail transport equip-
                                     mercial shippers not affiliated with foreign   ment disguises commercial shipments
                                     posts.                                         as mail and creates a significant security
                                                                                    risk. The task force further found that
                                     ETOEs operate in the United States, as         freight shipments, contained in equip-
                                     permitted by international agreements          ment bearing universally identifiable
                                     intended to foster cooperation in the          Postal Service logos or markings, are
                                     international mail market, and focus their     easily mistaken for mail and not afforded
                                     business on high-dollar bulk shipments         the same security screening as other
                                     from large customers in major cities.          freight. In addition, officials explained that
                                     Postal Service officials believe ETOEs         the misidentification of ETOE freight as
                                     may engage in improper and unauthor-           U.S. Mail could lead to increased airport
                                     ized practices, adversely impacting            mail security procedures and increased
                                     legitimate competition and creating a          cost to the Postal Service.
                                     security risk. Prior USPIS reviews found       We pointed out that to address these
                                     improper and unauthorized Postal Ser-          concerns, the Postal Service would need
                                     vice equipment use by U.S.-based ETOEs         to continue working with the Depart-
                                     to dispatch international shipments. The       ments of State, Justice, and Homeland
                                     USPIS concluded that unauthorized use          Security; the Universal Postal Union; and
                                     of Postal Service equipment had signifi-       foreign nations to properly regulate ETOE
                                     cant financial and security implications.      operations and ensure the security of
                                     Due to these concerns, the Postmaster          international mail.
                                     General asked us to examine ETOE oper-
                                     ations. In response, we conducted an
                                                                                    Security Vulnerability
                                     audit to determine whether practices or        Assessments
                                     procedures used by ETOEs were unfair,          Challenged with providing products
                                     improper, or unauthorized. Our audit was       and services to better meet customer
                                     narrowly focused and neither examined          needs, the Postal Service introduced
                                     the broader international competitive-         new technologies. These technologies
                                     ness issues that gave rise to ETOEs nor        make customer access to services more
                                     sought to evaluate whether they should         convenient while balancing the need for
                                     be allowed to continue to operate in the       the security and privacy of electronic
                                     United States. However, we did conclude        information maintained within its network
                                     that some ETOE practices are improper          infrastructure. Last year, the Nielsen/
                                     or unauthorized and that ETOEs have a          NetRatings named usps.com the number
                                     competitive advantage over the Postal          one brand among all U.S. government
                                     Service.




22 | Semiannual Report to Congress
                                                                                                                                                      MANAGEMENT CHALLENGES
websites with more than 21 million trans-       Information Security Services routinely
actions per month.                              performs tests to identify potential vulner-
                                                abilities.
The Postal Service has an aggressive
program to identify security issues using       In support of the Postal Service’s initia-
vulnerability assessment techniques.            tives, we conduct assessments to ensure
We support this initiative by identifying       voice systems provide a level of security
security weaknesses that could allow            commensurate with the criticality of the
access to critical information that should      system and the information it contains.
not be available to casual users. Using         We conducted a pilot audit of PBX
state-of-the-art diagnostic software tools,     security and telephone bill monitoring in
we perform security assessments of the          the Louisiana District. In this review, we
firewall, server, and database technolo-        found the Postal Service does a good job
gies that drive and protect critical Postal     detecting toll fraud on its PBX system,
Service applications. These assessments         and noted areas that could be improved.
provide the Postal Service with a com-          The Postal Service was responsive to
prehensive picture of the environment           these findings. It implemented voice
tested, as well as the technical informa-       security standards and replaced and
tion needed to enhance the high level of        upgraded their administrative tools
security Postal Service customers expect.       systems. They also outlined a plan to
                                                implement structured timelines and safety
During this reporting period, we per-
                                                briefings for employees with access to
formed technical assessments on
                                                information security computer rooms.
technologies that support the Web Bank
Secrecy Act and Property and Equipment          Providing Reliable and
Accounting System financial applications,
and we reviewed selected kiosks and             Transparent Information
servers that support the newly deployed         The Postal Service requires accurate
Automated Postal Centers (APCs).                information to make decisions that affect
                                                day-to-day operations, to meet congres-
As technology moves forward and new             sional reporting requirements, and to
applications are developed, the Postal
Service also remains challenged to
secure more than 245 legacy applications
deployed prior to January 2003. We will
play a major role in assessing this effort in
FY 2006.

Vulnerability Issues – Security
Controls and Voice Systems
The Postal Service is challenged with
ensuring its voice systems have adequate
security, minimize toll fraud, and provide
continuous availability to users. In its
first required Department of Homeland
Security plan submission for the shipping
sector, the Postal Service reported that
the availability of voice systems was criti-
                                                Last year, the Nielsen/NetRatings named usps.com the number one brand among all
cal to its core mission. The Postal Service     U.S. government websites with more than 21 million transactions per month.




                                                                                                                       April 1 – September 30, 2005 | 23
                                     conduct long-term planning. To be effec-
                                     tive, the information must also be timely,
                                                                                   Strategic Direction
                                     reliable, and available to those who need     A significant management challenge
                                     it, yet protected from those who do not.      facing the Postal Service is balancing its
                                                                                   public service obligation with the need to
                                     We performed financial audits at Postal       remain commercially viable. One of the
                                     Service installations and accounting ser-     tools the Postal Service used to meet this
                                     vice centers. We also audited information     challenge was its April 2002 Transforma-
                                     systems of general and application con-       tion Plan. In September 2005, the Postal
                                     trols in FY 2005, and plan similar audits     Service issued its Strategic Transforma-
                                     in FY 2006. These audits provide insight      tion Plan for FY 2006-2010 to build on
                                     into the reliability of, and security over,   the earlier plan and continue to meet
                                     critical information systems.                 the challenge of remaining commercially
                                     The Postal Service posts quarterly            viable. As in the earlier plan, the Postal
                                     reports on its financial condition and        Service continues to find innovative solu-
                                     results on its public website, usps.com,      tions for customers to conduct business
                                     as part of its strategy to increase report-   with the Postal Service.
                                     ing transparency. Implementation of the
                                     new general ledger in FY 2004, and the        Retail Strategy
                                     single repository of corporate data in        The Automated Postal Center (APC) was
                                     the Enterprise Data Warehouse (EDW),          one of several breakthroughs in expand-
                                     further enhance the transparency of the       ing access to Postal Service products
                                     Postal Service’s financial reporting by       and services for customers that visit post
                                     enabling monthly reporting capabilities.      offices each day. APCs are a state-of-the-
                                                                                   art, smart vending platforms providing
                                     Serving an average of 4,300 users and         convenient and reliable access to a
                                     generating more than 100,000 reports          broader range of services and informa-
                                     per week, the EDW collects approxi-           tion than traditional vending machines.
                                     mately 45,000 data files every month          These kiosks can provide customers with
                                     from 70 source systems. Design capabili-      access to products and services
                                     ties allow for data manipulation, deeper      24 hours-a-day, 7 days-a-week.
                                     data analysis, and reporting across
                                     functional lines that can lead to reduced     The 2002 Transformation Plan retail strat-
                                     costs, additional revenue, and improved       egies were to:
                                     business practices.                           n   Move simple transactions away from
                                                                                       the post office counter;
                                                                                   n   Create new, low-cost retail alternatives;
                                                                                   n   Optimize the retail network; and
                                                                                   n   Develop new retail services that
                                                                                       increase customer value and Postal
                                                                                       Service revenue.
                                                                                   The APCs directly address the first two
                                                                                   strategies and play a role in making the
                                                                                   latter two possible.




24 | Semiannual Report to Congress
                                                                                                                                      MANAGEMENT CHALLENGES
Since the deployment of the first 2,500       in line; and facility type, size, and location.
APCs in 2004, the Postal Service gener-       The 65 district facilities that received 67
ated revenue of more than $311 million as     APCs increased revenue and decreased
of September 30, 2005. Revenue has var-       wait time in line.
ied greatly depending on the area of the
                                              In August 2005, Postal Service manage-
country, as shown in the following chart.
                                              ment considered redeploying up to 800
      APC REVENUE                             of the original 2,500 APCs because they
                                              were underperforming compared to the
AS OF SEPTEMBER 30, 2005
                                              monthly APC revenue goal. The Postal
                                              Service is evaluating the redeployment
                                              process while planning to redeploy the
                                              bottom 100 of the 800 underperforming
                                              APCs in November 2005. The underper-
                                              forming machines will be reevaluated in
                                              January 2006 to determine redeployment
                                              of additional APCs.
                                              We are currently assessing whether the
                                              Postal Service is adequately redeploying
                                              the underperforming APCs (deployed in
                                              FY 2004) and properly planning for future
                                              placement of 3,000 new APCs at an esti-
                                              mated cost of $30 million.




APC revenue performance, so far,
achieved a major objective of the 2002
Transformation Plan — to meet the Postal
Service’s ever-increasing need for conve-
nient access without relying exclusively on
traditional, and costly, “brick and mortar”
solutions. In March 2005, Postal Service
officials identified potential facilities,
nationwide, that could receive APCs dur-
ing future deployments.
We reviewed the FY 2004 deployment
strategy for APCs in the Central Florida
District and found that Postal Service
officials adequately placed APCs in these
facilities. This assessment was based on
the walk-in revenue associated with the       APCs can provide customers with access to products and
self-service platform products; wait time     services 24 hours-a-day, 7 days-a-week.




                                                                                                       April 1 – September 30, 2005 | 25
      IDEAS WORTH EXPLORING
                                           This section outlines concepts for improv-                    solutions introduced to date include vend-
                                           ing Postal Service operations. The first                      ing machines and APC kiosks that move
                                           four concepts are presented here for                          transactions away from the retail counter
                                           the first time, specifically: lobby of the                    and allow customers convenient access
                                           future, expanding wireless service, selling                   to Postal Service products and services
                                           advertising space, and Medicare Part D                        24 hours-a-day, 7 days-a-week in most
                                           rebates. The last two concepts were pre-                      locations, without the necessity of 24-
                                           sented in the March 31, 2005, semiannual                      hour staffing. Customer wait time in line
                                           report and evaluated during this reporting                    is reduced by diverting transactions such
                                           period. These concepts are commercial-                        as mailing parcels up to 70 pounds, pur-
                                           ization of employee benefits programs                         chasing postage, looking up ZIP Codes,
                                           and letter carrier models. Each concept                       and tracking Delivery Confirmation from
                                           is presented here for comment and not                         retail clerks to self-service operation.
                                           as a formal recommendation for action.
                                                                                                         Building on this initial success, the Postal
                                           We invite public comments to these ideas
                                                                                                         Service is considering the Next Genera-
                                           via the following website: http://www.usp-
                                                                                                         tion Kiosk (NGK) to leverage the success
                                           soig.gov/semiannual.aspx.
                                                                                                         of the APC. The NGK will sell stamps
                                                                                                         printed on demand, allow payment by
                                           Lobby of the Future                                           cash, and enhance revenue-reporting
                                                                                                         capabilities for management. We believe
                                           The Postal Service looks to foster growth
                                                                                                         the Postal Service could look beyond
                                           through customer value by providing
                                                                                                         the NGK to a lobby of the future. This
                                           convenient and efficient access to postal
                                                                                                         could consist of a lobby kiosk (LK) that
                                           services through innovative and cost-
                                                                                                         can perform all post office transactions
                                           effective means. Its focus in this area
                                                                                                         — purchasing stamps, mailing parcels,
                                           involves managing expenses and improv-
                                                                                                         renting post office boxes, initiating retail
                                           ing customer service, in part through the
                                                                                                         sales transactions — 24 hours-a-day,
                                           use of advanced technology. Technology
                                                                                                         7 days-a-week with payment by debit,
                                                                                                         credit, cash cards, and cash.
                                                                                                         In a broader vein, the Postal Service
                                                                                                         could use the LK as an onsite portal to
                                                                                                         provide citizens increased access to gov-
                                                                                                         ernment services, while simultaneously
                                                                                                         collecting additional revenue. Government
                                                                                                         agencies would pay the Postal Service a
                                                                                                         fee to have the LK provide access, similar
                                                                                                         to the reimbursement it already receives
                                                                                                         for passport processing from the Depart-
                                                                                                         ment of State. The LK could be used, for
                                                                                                         example, to access the services of the
                                                                                                         Department of Veterans Affairs or the
                                                                                                         Social Security Administration, file income
                                                                                                         taxes electronically, order Government
                                                                                                         Printing Office publications, and submit
                                                                                                         state unemployment applications.
The Postal Service looks to foster growth through customer value by providing convenient and efficient
access to postal services through innovative and cost-effective means.




      26 | Semiannual Report to Congress
                                                                                                                                                        IDEAS WORTH EXPLORING
Finally, emerging wireless broadband               meeting to discuss new procedures or
technologies could enable the Postal               initiatives) to all customer support staff
Service to extend the lobby of the future          simultaneously, ensuring delivery of a
to offsite locations while collecting fees         consistent, clear message.
from governmental agencies for extend-
                                               n   Meaningful employment for Postal Ser-
ing the reach of their “field offices.” This
                                                   vice employees who are injured and on
would require placing additional wireless
                                                   extended light-duty service, after they
transmission towers on Postal Service
                                                   receive LK customer service training.
premises. The Postal Service currently
receives a small revenue stream from           These additional portal opportunities are
cellular phone companies for making a          an expansion of existing Postal Service
limited number of premises available for       policy to cooperate with federal agen-
cellular tower placement.                      cies by providing facilities and non-postal
                                               services if the overall costs to government
In a lobby of the future, customers could:
                                               are reduced and there is no interference
n   Use the LK to purchase a book of           with postal operations. Additionally, the
    stamps, mail a parcel, or purchase         Postal Service can and does charge
    postage on demand (one stamp at a          compensatory fees for services per-
    time).                                     formed on behalf of other agencies when
                                               there is a significant or ongoing cost to
n   Use the LK to complete all paperwork
                                               the Postal Service.
    and payment needed to rent a post
    office box. An on-site sales and service
    associate would help the customer
    gain initial access to the post office
    box during regular business hours.
n   Purchase retail sales merchandise
    through an online shopping catalog. A
    sales and service associate could pro-
    vide the merchandise to the purchaser
    at that location or mail it to them.
Customers in the lobby of the future might
require face-to-face customer support
when using the LK. In those instances,
the Postal Service could provide face-
to-face customer support via a two-way
audio/video link. Employees stationed at       Employees stationed at remote, centralized service centers, or even working from home could
remote, centralized service centers, or        provide customer support.
even working from home could provide
customer support. This would offer a
number of advantages for the Postal Ser-       We recognize that technology will not
vice, including:                               address all Postal Service customer
                                               needs and that on-site sales and service
n   More effective communication to the
                                               associates will still be required. However,
    customer support staff nationwide.
                                               due to the potential reduction of the
n   Management could provide the same          number of sales and service associates,
    communication (such as an all-hands        change in their work hours, and the use




                                                                                                                         April 1 – September 30, 2005 | 27
                                     of customer support personnel for the            of the access point, at speeds up to 54
                                     LK, management would need to resolve             megabits per second.
                                     the resulting labor relations issues.
                                                                                      Wi‑Fi promises to become more per-
                                     Along with these issues, “brick and              vasive and is beginning to support new
                                     mortar” issues would also need to be             types of cutting-edge services. In the
                                     addressed, given the probable redesign           future, Wi-Fi will be built into more types
                                     of existing and future post office locations     of devices, enabling new networking
                                     to ensure maximum utilization of space           opportunities in the home and office. For
                                     and security. Finally, not all existing post     example, Voice Over IP phone handsets,
                                     office locations may be able to benefit          which greatly reduce or eliminate long-
                                     from the LK pending an evaluation of             distance phone charges by using the
                                     sales volume and/or location.                    Internet as a carrier, are already available.
                                     Despite these obstacles, the LK could            Wi-Fi standards are evolving rapidly
                                     allow the Postal Service to make sig-            and, within the next two to three years,
                                     nificant inroads in fostering growth by          will offer a greater range of high-speed
                                     providing the customer convenient and            transmissions, depending upon the
                                     efficient access to all postal services as       technology used. Transmission ranges
                                     the banking industry did in 1969 when            will continue to increase, making it easier
                                     the first automated teller machine (ATM)         to connect to the local hotspot. Another
                                     was installed in New York.                       long-distance technology being tested,
                                                                                      known as WiMax, promises to deliver
                                     Today there are more than 384,000 ATMs
                                                                                      even greater reach than Wi-Fi, but will
                                     installed in the United States. The Postal
                                                                                      require outdoor transmission towers.
                                     Service is significantly beyond the bank-
                                     ing industry’s initial ATM step, yet it is not   One complaint among current hotspot
                                     close to where the banking industry is in        users is the inability to roam across many
                                     2005. As ATMs continue to evolve to pro-         popular networks, requiring them to pay
                                     vide new services unforeseen in 1969, the        for day passes in areas that their monthly
                                     Postal Service could make similar evolu-         plan does not cover. To alleviate this, hot-
                                     tionary steps via the lobby of the future.       spot operators are aggressively adding
                                                                                      new locations, which may provide rev-
                                                                                      enue opportunities for the Postal Service.
                                     Expanding                                        Hotspot aggregators offer revenue-
                                     Wireless Service                                 sharing plans for those who make their
                                     Wireless data communications are poised          premises available for Internet connectiv-
                                     for a dramatic increase in capability that       ity. The Postal Service could consider
                                     will transform how a mobile citizenry com-       selling this hotspot service to grow
                                     municates. Presently, Wireless Fidelity          revenue and assess whether it makes
                                     (Wi-Fi) data communications are available        business sense to offer customers an
                                     for bandwidth-intensive users, although in       Internet portal for additional government
                                     relatively limited locations. Public access      services.
                                     Wi-Fi networks, known as hotspots, are
                                     springing up in airports, coffee shops,
                                     bookstores, and other gathering spots to
                                     provide Internet connectivity to today’s
                                     mobile consumers. Wi-Fi hotspots allow
                                     connections within about a 50-foot radius




28 | Semiannual Report to Congress
                                                                                                                                                           IDEAS WORTH EXPLORING
           Selling                                                          This idea is not new. In 2000, businesses
                                                                            expressed a desire to advertise in the
           Advertising Space                                                Postal Service’s nationwide employee
           The Postal Service could generate                                publication, Postal Life, sent to all employ-
           revenue by selling advertising space                             ees at their home addresses. Advertising
           on its infrastructure as well as on its                          revenue would have covered the cost
           website, usps.com. Private companies                             of producing the 4-color, 32-page pub-
           and public municipalities already do this.                       lication. However, the publication was
           Municipalities typically contract with a                         discontinued before the proposed adver-
           firm that handles the operational aspects                        tising policy could be tested.
           of the project for a share of the revenue.                       In 2001, the Postal Service launched the
           Advertisements appear on city buses,                             Postal Ad Network to offer advertising
           bus shelters, and private trucks; and busi-                      space on delivery vehicles, collection
           nesses set up billboards on their property.                      boxes, Priority Mail and Express Mail
           Given the Postal Service’s presence in                           packaging, stamp-booklet covers,
           every neighborhood in America, there                             websites, and within post office lobbies.
           are many possibilities. Delivery vehicles                        Companies such as AOL Time-Warner,
           could carry ads for firms that ship using                        Kmart, and Pitney Bowes participated in
           the Postal Service. Post offices could dis-                      the network or in earlier trials.
           play flyers from local businesses. Postal
           Service facilities near major traffic arteries                   Although the Postal Ad Network raised
           may have space for billboards.                                   less revenue than hoped and Postal Life
                                                                            was discontinued, we believe the concept
                                                                            of selling advertising space deserves
                                                                            another look. The potential exists to raise
                                                                            revenue with little additional cost.
                                                                            The Postal Service could analyze its ear-
                                                                            lier ventures for any lessons that would
                                                                            help it decide whether to try again. When
                                                                            making its decision, the Postal Service
                                                                            may wish to consider costs that may be
                                                                            difficult to measure, such as a possible
                                                                            loss of the Postal Service brand.


                                                                            Medicare Part D
                                                                            Rebates
                                                                            Eligible employees who retire from the
                                                                            Postal Service can continue participat-
                                                                            ing in the Federal Employees Health
                                                                            Benefits (FEHB) program and the Postal
                                                                            Service is responsible for a portion of the
                                                                            premiums. FEHB premium costs have
                                                                            risen rapidly in recent years, due in part
                                                                            to an increase in the cost of prescription
The Postal Service could generate revenue by selling advertising space on   drugs. In 2004, Postal Service payments
its infrastructure as well as on its website: usps.com.




                                                                                                                            April 1 – September 30, 2005 | 29
                                     for retiree and survivor health benefits       application process. We support these
                                     totaled $1.3 billion.                          efforts.
                                     The Medicare Prescription Drug, Improve-
                                     ment, and Modernization Act of 2003            Commercialization
                                     (MMA) established a new voluntary pre-
                                     scription drug program (Part D). Effective     of Employee Benefits
                                     January 1, 2006, Medicare participants         Programs
                                     will be able to purchase prescription drug
                                                                                    We evaluated the Postal Service’s partici-
                                     coverage for an additional premium. To
                                                                                    pation in the DOL’s OWCP, and focused
                                     encourage employers to keep providing
                                                                                    on whether the Postal Service could
                                     prescription drug coverage for retirees,
                                                                                    replace its current OWCP program with a
                                     MMA also includes a rebate provision.
                                                                                    less costly one.
                                     Qualified retiree plans can receive a
                                     rebate for each Medicare participant who       On the positive side, savings would most
                                     chooses not to enroll in Part D. For 2006,     likely occur if the Postal Service had its
                                     the rebate equals 28 percent of a retiree’s    own workers’ compensation program.
                                     prescription drug costs greater than $250      These savings would be in the areas of
                                     and not greater than $5,000. The Centers       continuation of pay elimination and a
                                     for Medicare & Medicaid Services have          three-day waiting period, reduced OWCP
                                     estimated the rebate will average $668         administrative fees and Postal Service
                                     per covered retiree in 2006.                   third-party administrators, physician
                                                                                    selection, buyout options, mandatory
                                     Government plans that meet the require-
                                                                                    retirements, compensation limits, depen-
                                     ments, including FEHB plans, are eligible
                                                                                    dency status, and accountability controls.
                                     to receive the rebate, but the Office of
                                     Personnel Management has announced             Negative issues include potential resis-
                                     that the federal government will not           tance by the Postal Service’s four major
                                     request it. This decision makes sense for      employee unions, if employee compensa-
                                     most federal agencies as taxpayers fund        tion benefits are reduced, and the need
                                     the prescription drug coverage through         for legislative action to separate the Postal
                                     either Medicare or the FEHB program.           Service from the existing OWCP.
                                     However, unlike other federal agencies,
                                     the Postal Service provides the govern-
                                     mental contribution for its retirees’ health   Letter Carrier Models
                                     plans, and that contribution is funded by      City and rural carriers’ compensation sys-
                                     postal ratepayers.                             tems are collectively bargained between
                                                                                    the Postal Service and their associated
                                     Postal Service ratepayers may be entitled
                                                                                    unions. The Postal Service contracts with
                                     to the same relief available to private-
                                                                                    private individuals or firms for box delivery
                                     sector companies. The Postal Service
                                                                                    highway contract routes (HCR).
                                     has estimated that, over time, the rebate
                                     could reduce its total future annuitant        We examined issues pertaining to the
                                     health benefit obligations by more than        city and rural carrier models. City car-
                                     $6 billion. Moreover, taking advantage of      riers’ workweek is 40 hours per week,
                                     the rebate provision would not require any     eight hours per day. Overtime is paid in
                                     changes to existing health coverage for        the event city carriers work beyond eight
                                     Postal Service retirees or their survivors.    hours in a day and 40 hours in a week,
                                     In October, the Postal Service began the       at 150 percent of the carrier’s regular rate




30 | Semiannual Report to Congress
                                                                                                                                                                  IDEAS WORTH EXPLORING
and at 200 percent beyond 10 hours on                              Conversion from city to rural routes
their scheduled work day or beyond 8                               presents the Postal Service with a chal-
hours on their non-scheduled work day.                             lenging union and labor relations issue.
                                                                   Specifically, all changes to routes must be
Evaluated compensation is the basis for
                                                                   in accordance with applicable provisions
compensating rural carriers. This com-
                                                                   of the city and rural letter carrier national
pensation is based on a route review that
                                                                   labor agreements. Currently, the Postal
includes mail counts, route miles, evalu-
                                                                   Service has about 200 grievances relating
ated time as determined by the office,
                                                                   to the conversion of deliveries from city
and the route standard time. Evaluated
                                                                   service to rural delivery service.
compensation is generally based on rural
carriers assigned to evaluated routes                              Arbitration has generally been favorable to
totaling 35 hours or more.                                         the unions. However, the obstacles that
                                                                   exist in converting city to rural routes do
On evaluated routes, there is an incentive
                                                                   not exist for new growth delivery service.
to complete the routes more efficiently;
                                                                   The Postal Service estimates an increase
hourly routes do not have incentives to be
                                                                   of 1.89 million delivery points in FY 2005.
efficient. Because city letter carriers are
                                                                   Establishing rural routes in new growth
compensated hourly, there is little incen-
                                                                   areas, to the maximum extent possible,
tive for them to deliver the mail quickly;
                                                                   would provide the best opportunity for
in fact, this compensation method could
                                                                   reducing delivery costs.
encourage slower delivery because of
overtime compensation.
The Postal Service has two methods at
its disposal to achieve this lower cost
— convert some existing city routes to
rural routes or establish new growth as
rural routes.




City and rural carriers’ compensation systems are collectively bargained between the Postal Service and their associated unions.




                                                                                                                                   April 1 – September 30, 2005 | 31
U.s. postal service
Office Of Inspector General
Organizational Chart
As of September 30, 2005




                                                                                                     Inspector General



                                                                                                          Deputy
                                                                                                     Inspector General



                         Office of            AIG                                                           AIG                                                                 AIG
   Office of CIO
                      General Counsel   Mission Support                                                Investigations                                                          Audit



                      Deputy General        Director        Deputy AIG            Deputy AIG            Deputy AIG             Deputy AIG                                                      Planning, Budgeting
      CAATS                                                                   Investigations East                                                  Audit Reporting
                         Counsel        Mission Support    Headquarters                             Investigations South   Investigations West                                                   & Accountability



    Application        Congressional,       Human           Investigative         Computer                Atlanta                Chicago             Deputy AIG             Deputy AIG            Deputy AIG
   Development         FOIA & Hotline      Resources         Operations          Crimes Unit            Field Office           Field Office      Financial Operations     Core Operations        HQ Operations



                                         Administrative                       Boston Field Office          Miami                 Denver
   IT Operations       Legal Services                     Special Inquiries                                                    Field Office       Field Financial East   Capital Investments       Marketing
                                           Services                                                     Field Office



   Consolidated                                             Strategic             New York                 Dallas             Los Angeles           Field Financial           Network               Supply
                                          Performance                                                                         Field Office              Central              Processing           Management
     Security                                              Enforcement           Field Office           Field Office



  Client Support/                                                                Philadelphia             Houston            San Francisco                                 Transportation
                                          Investments                            Field Office                                 Field Office       Field Financial West                            Human Capital
      Telecom                                                                                           Field Office


                                                                                                                                                                                                  Oversight of
                                         Professional                            Washington                                    St. Louis               Financial          Delivery & Retail       Investigative
                                         Development                             Field Office          Internal Affairs                               Statements
                                                                                                                              Field Office                                                          Activities


                                                                                                                                                     Information
                                                                                                                                                       Systems              Engineering             Facilities



                                                                                                                                                                            Evolutionary
                                                                                                                                                                              Network
                                                                                                                                                                            Development




                                                                                                                                Abbreviations
                                                                                                                                AIG 	Assistant Inspector General
                                                                                                                                CAATS 	Computer Assisted Assessment Techniques
                                                                                                                                CIO	Chief Information Officer
                                                                                                                                FOIA	         Freedom of Information Act
                                                                                                                                IT	Information Technology
                                                                                                                                HQ	Headquarters




              32 | Semiannual Report to Congress
    U.s. postal service
    Office Of Inspector General
    Office Locations
                                                                           The OIG currently has more than 800 employees located
                                                                           in 13 field offices as well as other locations nationwide.




                              Seattle, WA



                                                                                                              Pittsburgh, PA
                                                                                                                                          Portland, ME
                                                                                                                                          Albany, NY
                                                                                                                                          Boston, MA
                                                                                                                                       Springfield, MA
                                                                                               Detroit, MI                             Providence, RI
                                                                                 Chicago, IL                                         New Haven, CT
                                                                                               Cleveland, OH
                                   Salt Lake City, UT                Des Moines, IA                                               New York, NY
                                                                                   Indianapolis,IN
San Francisco, CA                                                                                  Charleston, WV                Philadelphia, PA
                                              Denver, CO       Kansas City,KS
                           Las Vegas, NV                                                     Covington, KY                      Baltimore, MD
                                                                         St.Louis,MO                                           Washington, DC
     Los Angeles, CA                                                                      Memphis,TN                       Raleigh, NC
                                 Phoenix, AZ Albuquerque, NM
           San Diego, CA                                                Little Rock, AR                                  Greensboro, NC
                                                                                          Birmingham, AL
                                                                                                                         Charleston, SC
                                                                    Dallas,TX                                           Columbia, SC
                                                                                                                       Atlanta, GA
                                                                                                                       Jacksonville, FL

                                                                                          New Orleans, LA            Miami, FL
                                                                              Houston, TX

                                                                                                                                          Puerto Rico



                                                                                                              Field Offices
                                                                                                              Field Offices (Investigations Only)
                                                                                                              Audit & Investigations Offices
                                                                                                              Investigations Only




                                                                                                                       April 1 – September 30, 2005 | 33
Appendices
                                   The Inspector General Act of 1978 requires                          istration of U.S. Postal Service programs and
                                   semiannual reports on the immediately pre-                          operations during the reporting period.
                                   ceding six-month periods ending March 31
                                                                                                       During the last six months, the Postal Service
                                   and September 30. These reports are sent to
                                                                                                       agreed with OIG recommendations that iden-
                                   Congress and made available to the public.
                                                                                                       tified potential monetary benefits of more than
                                   This report summarizes OIG activities and                           $216 million.
                                   illustrates significant problems, abuses and
                                                                                                      The appendices on the following pages fulfill
                                   deficiencies, along with recommendations
                                                                                                      the requirements of the Act.
                                   and corrective actions related to the admin-




                                               Appendix A
Definitions
Questioned Costs
                                               REPORTS ISSUED TO POSTAL SERVICE MANAGEMENT
A cost that is unnecessary,                    For the period April 1 – September 30, 2005
unreasonable, unsupported,
                                               OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of
or an alleged violation of law,
                                               the Postal Service. Each team issues audit reports (AR) or management advisory reports (MA) in accordance with the
regulation, contract, etc.
                                               identified needs of the project.
Unsupported Costs
A cost that is not supported
by adequate documentation.                     Summary
Unsupported costs are included
in Questioned Costs.                           Following is a summary by principal area of reports issued to Postal Service management. The following pages list each
Funds Put to                                   issued report.
Better Use
Funds that could be used more                                          Number                               Recommended        Potential Potential
efficiently by implementing                         Management      of Reports   Questioned Unsupported       Funds Put to    Additional Additional Unrecoverable
recommended actions.                                Challenge           Issued       Costs1       Costs         Better Use     Revenue Expense              Costs
Potential Additional                                Cost Control          165    $58,125,487    $994,664       $46,770,103     $989,805           —        $9,137,875
Revenue                                             Revenue                 8            —            —        $98,128,848     $930,038           —                  —
Amounts from revenue
generating functions such as                        Human Capital           9          1,295          —               $544            —      $22,608          $64,064
retail sales, rent, leases, or
                                                    Preserve               22      $103,330           —         $1,775,386            —           —                  —
fees that were underpaid or not
                                                    Integrity and
realized. In addition, this category                Security
includes increased revenue from
existing functions and generating                   Strategic               1            —            —                  —            —           —                  —
revenue from new sources.                           Direction
                                                    TOTAL                 205    $58,230,112    $994,664      $146,674,881 $1,919,843        $22,608       $9,201,939
Potential Additional
Expense
An expense that perhaps should                  Total includes unsupported costs of $994,664.
                                               1
not have been incurred.
Unrecoverable Costs
A cost that perhaps should not
have been incurred and is not
recoverable.




          34 | Semiannual Report to Congress
                                                                                                                                                              appendix A
Reports With Quantifiable Potential
Monetary Benefits
                                                              Total            Recommended       Potential Potential
                                                        Questioned Unsupported   Funds Put to   Additional Additional Unrecoverable
Report Title                                                 Costs       Costs     Better Use    Revenue    Expense           Costs



COST CONTROL 
DELIVERY AND RETAIL 
City Letter Carrier Operations – Chicago District
DR-AR-05-019; 9/29/2005                                         —          —              —           —          —       $2,020,200
City Letter Carrier Operations – San Diego District
DR-AR-05-014; 8/8/2005                                          —          —              —           —          —       $1,423,935
City Letter Carrier Operations – Santa Ana District
DR-AR-05-013; 8/8/2005                                          —          —              —           —          —       $2,127,852
Delivery Vehicle Utilization – General Services
Administration Leased Vehicles
DR-AR-05-018; 9/29/2005                                         —          —       $5,374,077         —          —              —

ENGINEERING 
Flats Identification Code Sort for Automated Flat
Sorting Machine 100s
DA-AR-05-001; 9/30/2005                                 $29,474,775        —       $7,711,005         —          —       $3,551,291

FISCAL YEAR 2005 FINANCIAL INSTALLATION AUDITs
Atlanta Business Mail Entry Unit – Atlanta, GA
FF-AR-05-166; 6/23/2005                                         —          —              —        $2,200        —              —
Beverly Business Mail Entry Unit – Beverly, MA
FF-AR-05-187; 7/20/2005                                         —          —              —        $2,298        —              —
Bridgman Post Office – Bridgman, MI
FF-AR-05-160; 6/27/2005                                         —          —              —        $2,430        —              —
Cardiss Collins Postal Store – Chicago, IL
FF-AR-05-228; 9/23/2005                                    $70,641         —              —     $267,637         —              —
Centereach Main Post Office – Centereach, NY
FF-AR-05-163; 7/20/2005                                         —          —              —         $775         —              —
Champlain Business Mail Entry Unit – Champlain, NY
FF-AR-05-224; 9/27/2005                                         —          —              —        $7,278        —              —
Colleyville Business Mail Entry Unit, Colleyville, TX
FF-AR-05-134; 5/17/2005                                         —          —              —        $1,444        —              —
Dallas Business Mail Entry Unit – Dallas, TX
FF-AR-05-167; 6/30/2005                                         —          —              —       $59,501        —              —
Dallas Main Post Office – Dallas, TX
FF-AR-05-219; 9/13/2005                                    $44,548         —              —        $2,706        —              —
Daytona Beach Business Mail Entry Unit –
Daytona Beach, FL
FF-AR-05-140; 5/23/2005                                         —          —              —        $1,838        —              —
Enfield Business Mail Entry Unit – Enfield, CT
FF-AR-05-225; 9/20/2005                                     $8,832         —              —         $928         —              —
Eugene Business Mail Entry Unit – Eugene, OR
FF-AR-05-155; 6/22/2005                                         —          —              —        $2,197        —              —
Fair Oaks Business Mail Entry Unit – Fair Oaks, CA
FF-AR-05-206; 8/15/2005                                         —          —              —         $624         —              —
Gahanna Finance Station – Gahanna, OH
FF-AR-05-198; 8/17/2005                                         —          —              —       $24,552        —              —




                                                                                                                          April 1 – September 30, 2005 | 35
           Reports With Quantifiable Potential
           Monetary Benefits
                                                                        Total            Recommended       Potential Potential
                                                                  Questioned Unsupported   Funds Put to   Additional Additional Unrecoverable
           Report Title                                                Costs       Costs     Better Use    Revenue    Expense           Costs
           Greenville Business Mail Entry Unit – Greenville, NC
           FF-AR-05-169; 6/27/2005                                       —           —              —         $964         —              —
           Hartford Business Mail Entry Unit – Hartford, CT
           FF-AR-05-142; 5/31/2005                                       —           —              —         $234         —              —
           Hayward Business Mail Entry Unit – Hayward, CA
           FF-AR-05-204; 8/12/2005                                       —           —              —        $6,770        —              —
           Highland Park Business Mail Entry Unit –
           Highland Park, IL
           FF-AR-05-109; 4/7/2005                                        —           —              —         $760         —              —
           Kaneohe Business Mail Entry Unit – Kaneohe, HI
           FF-AR-05-193; 7/28/2005                                       —           —              —         $481         —              —
           Kekaha Post Office – Kekaha, HI
           FF-AR-05-189; 7/27/2005                                       —           —              —        $1,506        —              —
           Klamath Falls Business Mail Entry Unit –
           Klamath Falls, OR
           FF-AR-05-103; 4/4/2005                                        —           —              —         $680         —              —
           Lancaster Business Mail Entry Unit – Lancaster, OH
           FF-AR-05-186; 7/26/2005                                       —           —              —        $6,543        —              —
           Lebanon Business Mail Entry Unit – Lebanon, OH
           FF-AR-05-162; 6/21/2005                                       —           —              —     $335,636         —              —
           Lodi Business Mail Entry Unit – Lodi, CA
           FF-AR-05-115; 4/20/2005                                       —           —              —        $1,629        —              —
           Long Lake Business Mail Entry Unit – Long Lake, MN
           FF-AR-05-197; 8/1/2005                                        —           —              —        $1,612        —              —
           Maquoketa Business Mail Entry Unit – Maquoketa, IA
           FF-AR-05-209; 8/23/2005                                       —           —              —         $409         —              —
           McAlester Business Mail Entry Unit – McAlester, OK
           FF-AR-05-145; 6/2/2005                                        —           —              —        $6,085        —              —
           McLean Self-Service Postal Center – McLean, VA
           FF-AR-05-119; 4/25/2005                                       —           —              —           —          —         $12,090
           Niagara Business Mail Entry Unit – Niagara, NY
           FF-AR-05-136; 5/18/2005                                       —           —              —        $9,543        —              —
           Pasadena Business Mail Entry Unit – Pasadena, CA
           FF-AR-05-192; 7/27/2005                                     $817          —              —       $17,482        —              —
           Placerville Post Office – Placerville, CA
           FF-AR-05-127; 5/6/2005                                    $2,128       $2,128            —           —          —              —
           Pontiac Main Post Office – Pontiac, MI
           FF-AR-05-153; 6/15/2005                                   $1,309       $1,309            —           —          —              —
           Port Huron Business Mail Entry Unit – Port Huron, MI
           FF-AR-05-211; 8/23/2005                                       —           —              —        $1,336        —              —
           Reynoldsburg Finance Station – Reynoldsburg, OH
           FF-AR-05-179; 7/13/2005                                       —           —              —        $2,025        —              —
           Rice Lake Post Office – Rice Lake, WI
           FF-AR-05-129; 5/9/2005                                        —           —              —        $2,213        —              —
           San Carlos Main Post Office – San Carlos, CA
           FF-AR-05-151; 6/9/2005                                        —           —              —           —          —            $686
           San Leandro Business Mail Entry Unit –
           San Leandro, CA
           FF-AR-05-133; 5/19/2005                                   $2,576       $2,576            —        $1,217        —              —




36 | Semiannual Report to Congress
                                                                                                                                                             appendix A
Reports With Quantifiable Potential
Monetary Benefits
                                                             Total            Recommended       Potential Potential
                                                       Questioned Unsupported   Funds Put to   Additional Additional Unrecoverable
Report Title                                                Costs       Costs     Better Use    Revenue    Expense           Costs
Santa Ana Processing and Distribution Center Window
Unit – Santa Ana, CA
FF-AR-05-217; 9/26/2005                                  $29,149          —              —       $14,424        —              —
South Padre Island Branch – South Padre Island, TX
FF-AR-05-108; 4/7/2005                                        —           —              —       $42,588        —              —
Southside Station – Richmond, VA
FF-AR-05-131; 5/10/2005                                       —           —              —        $2,239        —              —
Stockton Business Mail Entry Unit – Stockton, CA
FF-AR-05-149; 6/8/2005                                      $882          —              —       $23,542        —              —
Sykesville Post Office – Sykesville, MD
FF-AR-05-117; 4/25/2005                                       —           —              —         $523         —           $1,821
Tampa Main Office Window Unit – Tampa, FL
FF-AR-05-229; 9/27/2005                                       —           —              —        $9,114        —              —
Thousand Oaks Main Post Office –
Thousand Oaks, CA
FF-AR-05-156; 6/24/2005                                   $5,306          —              —     $117,734         —              —
Utica Business Mail Entry Unit – Utica, NY
FF-AR-05-202; 8/17/2005                                       —           —              —        $2,413        —              —
Westport Business Mail Entry Unit – Westport, CT
FF-AR-05-191; 7/27/2005                                   $6,762          —              —        $3,695        —              —

INFORMATION SYSTEMS 
National Voice Services – Savings Opportunities
IS-AR-05-016; 9/30/2005                                       —           —       $9,883,972         —          —              —

SUPPLY MANAGEMENT 
Audit of Certified Price Adjustment Claim Submitted
by Evergreen Aviation Ground Logistics Enterprises,
Incorporated, Under Contract Number SNET-01-SER
CA-CAR-05-016; 4/6/2005                                 $864,898          —              —           —          —              —
Audit of Equitable Price Adjustment Claim Submitted
by Advanced Construction Technologies, Ltd. Under
Contract Number 362575-00-B-0399
CA-CAR-05-020; 6/15/2005                               $1,780,367         —              —           —          —              —
Audit of Firm Fixed Price Proposal Submitted by Bowe
Bell & Howell, Under Solicitation Number W52H09-
04-R-0133
CA-CAR-05-025; 9/29/2005                                $237,382          —              —           —          —              —
Audit of Firm Fixed Price Proposal Submitted by Bowe
Bell & Howell, Under Solicitation Number W52H09-
04-R-0133
CA-CAR-05-026; 9/29/2005                                $267,488          —              —           —          —              —
Audit of Firm Fixed Price Proposal Submitted by
International Business Machines, Global Services,
Business Consulting Services – Federal, Under
Proposal Number APC 035R3
CA-CAR-05-017; 5/3/2005                                $3,127,088         —              —           —          —              —
Audit of Firm Fixed Price Proposal Submitted by
Northrop Grumman Corporation, Electronic Systems
Company, Under Solicitation Number 3BMHRD-03-
Z5541
CA-CAR-05-022; 7/12/2005                               $1,373,941         —              —           —          —              —




                                                                                                                         April 1 – September 30, 2005 | 37
           Reports With Quantifiable Potential
           Monetary Benefits
                                                                      Total            Recommended       Potential Potential
                                                                Questioned Unsupported   Funds Put to   Additional Additional Unrecoverable
           Report Title                                              Costs       Costs     Better Use    Revenue    Expense           Costs
           Audit of Firm Fixed Price Proposal Submitted by
           Northrop Grumman Corporation, Electronic Systems,
           Company, Under Solicitation Number 3BMHRD-03-
           Z5541
           CA-CAR-05-021; 6/27/2005                               $131,899         —              —           —          —              —
           Audit of Firm Fixed Price Proposal Submitted
           by Siemens Logistics and Assembly Systems
           Incorporated, Postal Automation Under Solicitation
           Number 3AAERD-05-A-1589
           CA-CAR-05-018; 5/19/2005                             $12,151,394   $988,651            —           —          —              —
           Electronic Data Systems Contract Invoice
           Approval Procedures
           CA-AR-05-002; 5/13/2005                                $980,682         —              —           —          —              —

           TRANSPORTATION 
           Bulk Mail Center Highway Transportation Routes
           – Pacific Area
           NL-AR-05-012; 9/21/2005                                      —          —       $3,123,562         —          —              —
           Commercial Air Network Operations
           NL-AR-05-015; 9/28/2005                               $7,277,563        —       $6,705,951         —          —              —
           Mail Transport Equipment Service Center Network
           – Highway Transportation Routes –
           New York Metro Area
           NL-AR-05-014; 9/28/2005                                $285,060         —         $740,752         —          —              —
           Surface Networks – Intermodal Rail and Highway
           Transportation Between the Pacific and
           Southeast Areas
           NL-AR-05-011; 9/19/2005                                      —          —       $1,261,308         —          —              —
           Surface Transportation – Bulk Mail Center Highway
           Transportation Routes – Capital Metro Area
           NL-AR-05-009; 9/2/2005                                       —          —         $803,060         —          —              —
           Surface Transportation – Bulk Mail Center Highway
           Transportation Routes – New York Metro Area
           NL-AR-05-007; 6/9/2005                                       —          —       $1,499,371         —          —              —
           Surface Transportation – Bulk Mail Center Highway
           Transportation Routes – Northeast Area
           NL-AR-05-013; 9/26/2005                                      —          —       $2,491,133         —          —              —
           Surface Transportation – Bulk Mail Center Highway
           Transportation Routes – Southwest Area
           NL-AR-05-008; 8/3/2005                                       —          —       $7,175,912         —          —              —

          REVENUE
           DELIVERY AND RETAIL 
           Balloon Rate and Parcel Surcharges
           DR-AR-05-017; 9/29/2005                                      —          —              —       $24,600        —              —




38 | Semiannual Report to Congress
                                                                                                                                                             appendix A
Reports With Quantifiable Potential
Monetary Benefits
                                                             Total            Recommended       Potential Potential
                                                       Questioned Unsupported   Funds Put to   Additional Additional Unrecoverable
Report Title                                                Costs       Costs     Better Use    Revenue    Expense           Costs

MARKETING 
Expedited Packaging Supplies
MS-AR-05-002; 9/28/2005                                       —           —       $4,000,000         —          —              —
International Customized Mail Agreements
MS-AR-05-001; 8/16/2005                                       —           —              —     $905,438         —              —

NETWORK PROCESSING 
Efficiency of the Airmail Records Unit at the Los
Angeles International Service Center
NO-AR-05-010; 4/28/2005                                       —           —       $1,847,858         —          —              —
Efficiency of the Airmail Records Unit at the San
Francisco International Service Center
NO-AR-05-012; 9/6/2005                                        —           —       $2,563,277         —          —              —
Efficiency of the Los Angeles International
Service Center
NO-AR-05-011; 6/17/2005                                       —           —      $26,100,000         —          —              —
Efficiency Review of the Canton, OH, Processing and
Distribution Facility
NO-AR-05-013; 9/22/2005                                       —           —      $63,617,713         —          —              —

HUMAN CAPITAL 
HUMAN CAPITAL 
Office of Workers’ Compensation Programs’ Schedule
Award Payments to Postal Service Employees in the
Pacific Area – Report II
HM-AR-05-011; 9/29/2005                                       —           —            $544          —      $22,608       $64,064

Verification of the Anticipated and Realized Medical
Cost Savings Resulting From the Postal Service’s
Contracts With First Health Group Corporation
HM-AR-05-005; 5/9/2005                                    $1,295          —              —           —          —              —

FACILITIES 
Environmental Remediation Project at the Pompano
Beach Auxiliary Vehicle Maintenance Facility
FA-MA-05-001; 4/28/2005                                       —           —          $25,000         —          —              —

INFORMATION SYSTEMS 
Security Controls in Voice Systems –
Louisiana District
IS-AR-05-007; 4/18/2005                                 $103,330          —         $258,386         —          —              —

OVERSIGHT OF INVESTIGATIVE ACTIVITIES 
Postal Service Law Enforcement Vehicles
SA-AR-05-002; 5/24/2005                                       —           —       $1,492,000         —          —              —




                                                                                                                         April 1 – September 30, 2005 | 39
          report listing
          The following complete listing of all OIG reports issued to Postal Service management. It is grouped first by management challenge, second by
          category of review and year, if applicable, and then alphabetically by title.
          For the period of April 1, 2005, through September 30, 2005

          Cost control
           AUDIT OF STATISTICAL TESTS FOR FISCAL YEAR 2005 COST AND REVENUE ANALYSIS
           Caribbean District                                   Dallas District                                   Triboro District, John F. Kennedy Air Mail Facility
           FF-AR-05-199; 8/4/2005                               FF-AR-05-118; 4/25/2005                           FF-AR-05-146; 6/3/2005
           Central PA District                                  Erie District
           FF-AR-05-195; 7/29/2005                              FF-AR-05-126; 5/6/2005
           Colorado/Wyoming District                            Richmond District
           FF-AR-05-171; 6/29/2005                              FF-AR-05-203; 8/10/2005


           DELIVERY AND RETAIL
          Benchmarking of Parcel Surcharges                     City Letter Carrier Operations –                  Self-Service Vending Program
          DR-MA-05-001; 9/30/2005                               Santa Ana District                                DR-AR-05-012; 4/11/2005
                                                                DR-AR-05-013; 8/8/2005
          City Letter Carrier Operations – Chicago District
          DR-AR-05-019; 9/29/2005                               Delivery Vehicle Utilization – General Services
                                                                Administration Leased Vehicles
          City Letter Carrier Operations –                      DR-AR-05-018; 9/29/2005
          San Diego District
          DR-AR-05-014; 8/8/2005


            ENGINEERING
           Flats Identification Code Sort for Automated Flat
           Sorting Machine 100s
           DA-AR-05-001; 9/30/2005


            FACILITIES
           Maintenance Offices’ Acceptance of Facilities
           Repair and Alterations Projects in the
           Southeast Area
           FA-AR-05-001; 9/29/2005


            FINANCIAL STATEMENT
           Independent Report on Withholdings and               Reporting Salary Overpayments to the Internal
           Contributions for Health Benefits, Life Insurance,   Revenue Service
           Retirement, and Employee Headcount Data              FT-MA-05-002; 9/28/2005
           FT-AR-05-010; 9/26/2005


            fiscal year 2005 FINANCIAL installation audits
          Advance Business Mail Entry Unit – Advance, NC        Austin Downtown Station – Austin, TX              Bedford Business Mail Entry Unit –
          FF-AR-05-120; 4/29/2005                               FF-AR-05-102; 4/6/2005                            Bedford, IN
                                                                                                                  FF-AR-05-170; 6/27/2005
          Apex Business Mail Entry Unit – Apex, NC              Bainbridge Business Mail Entry Unit –
          FF-AR-05-218; 9/8/2005                                Bainbridge, GA                                    Beverly Business Mail Entry Unit – Beverly, MA
                                                                FF-AR-05-176; 7/6/2005                            FF-AR-05-187; 7/20/2005
          Arcadia Post Office – Arcadia, WI
          FF-AR-05-150; 6/9/2005                                Beaufort Marine Corps Air Station Branch Post     Blair Business Mail Entry Unit – Blair, NE
                                                                Office – Beaufort, SC                             FF-AR-05-154; 6/13/2005
          Atlanta Business Mail Entry Unit – Atlanta, GA        FF-AR-05-111; 4/11/2005
          FF-AR-05-166; 6/23/2005




40 | Semiannual Report to Congress
                                                                                                                                                                                  appendix A
Boise Business Mail Entry Unit – Boise, ID         Enfield Business Mail Entry Unit – Enfield, CT     Kaneohe Business Mail Entry Unit – Kaneohe, HI
FF-AR-05-212; 8/25/2005                            FF-AR-05-225; 9/20/2005                            FF-AR-05-193; 7/28/2005
Bonne Terre Post Office – Bonne Terre, MO          Eugene Business Mail Entry Unit – Eugene, OR       Kekaha Post Office – Kekaha, HI
FF-AR-05-175; 7/5/2005                             FF-AR-05-155; 6/22/2005                            FF-AR-05-189; 7/27/2005
Bridgman Post Office – Bridgman, MI                Evanston South Station, Evanston, IL               Klamath Falls Business Mail Entry Unit –
FF-AR-05-160; 6/27/2005                            FF-AR-05-210; 8/24/2005                            Klamath Falls, OR
                                                                                                      FF-AR-05-103; 4/4/2005
Buena Park Station – Buena Park, CA                Fair Oaks Business Mail Entry Unit –
FF-AR-05-196; 8/1/2005                             Fair Oaks, CA                                      Lake Park Automated Postal Center –
                                                   FF-AR-05-206; 8/15/2005                            Lake Park, FL
Buzzards Bay Business Mail Entry Unit –                                                               FF-AR-05-113; 4/19/2005
Bourne, MA                                         Fiscal Year 2005 Financial Installation Audit –
FF-AR-05-106; 4/7/2005                             Olympic Valley Post Office – Olympic Valley, CA    Lancaster Business Mail Entry Unit –
                                                   FF-AR-05-223; 9/15/2005                            Lancaster, OH
Califon Post Office – Califon, New Jersey                                                             FF-AR-05-186; 7/26/2005
FF-AR-05-200; 8/17/2005                            Fortuna Business Mail Entry Unit – Fortuna, CA
                                                   FF-AR-05-161; 6/20/2005                            Landing Main Post Office – Landing, NJ
Camino Media Station Automated Postal Center                                                          FF-AR-05-208; 8/17/2005
– Bakersfield, CA                                  Fowler Post Office – Fowler, IL
FF-AR-05-190; 7/27/2005                            FF-AR-05-124; 5/4/2005                             Lebanon Business Mail Entry Unit – Lebanon, OH
                                                                                                      FF-AR-05-162; 6/21/2005
Canandaigua Post Office – Canandaigua, NY          Franklin Mills Station – Philadelphia, PA
FF-AR-05-214; 9/7/2005                             FF-AR-05-205; 8/15/2005                            Liberty Post Office – Liberty, NC
                                                                                                      FF-AR-05-139; 5/23/2005
Cardiss Collins Postal Store – Chicago, IL         Gahanna Finance Station – Gahanna, OH
FF-AR-05-228; 9/23/2005                            FF-AR-05-198; 8/17/2005                            Lodi Business Mail Entry Unit – Lodi, CA
                                                                                                      FF-AR-05-115; 4/20/2005
Centereach Main Post Office – Centereach, NY       Gainesville Business Mail Entry Unit –
FF-AR-05-163; 7/20/2005                            Gainesville, FL                                    Long Lake Business Mail Entry Unit –
                                                   FF-AR-05-143; 6/1/2005                             Long Lake, MN
Champaign Post Office – Champaign, IL                                                                 FF-AR-05-197; 8/1/2005
FF-AR-05-112; 4/20/2005                            Galena Post Office – Galena, OH
                                                   FF-AR-05-144; 6/1/2005                             Lowell Post Office – Lowell, OH
Champlain Business Mail Entry Unit –                                                                  FF-AR-05-183; 7/21/2005
Champlain, NY                                      Galesburg Automated Postal Center –
FF-AR-05-224; 9/27/2005                            Galesburg, IL                                      Magnolia Finance Station Automated Postal
                                                   FF-AR-05-165; 6/23/2005                            Center – Riverside, CA
Colleyville Business Mail Entry Unit,                                                                 FF-AR-05-148; 6/7/2005
Colleyville, TX                                    Greenville Business Mail Entry Unit –
FF-AR-05-134; 5/17/2005                            Greenville, NC                                     Manistee Post Office – Manistee, MI
                                                   FF-AR-05-169; 6/27/2005                            FF-AR-05-207; 8/16/2005
Coloma Post Office – Coloma, MI
FF-AR-05-177; 7/5/2005                             Harriman Main Post Office – Harriman, NY           Maquoketa Business Mail Entry Unit –
                                                   FF-AR-05-105; 4/6/2005                             Maquoketa, IA
Conroe Business Mail Entry Unit – Conroe, TX                                                          FF-AR-05-209; 8/23/2005
FF-AR-05-121; 4/29/2005                            Hartford Business Mail Entry Unit – Hartford, CT
                                                   FF-AR-05-142; 5/31/2005                            Marshalltown Business Mail Entry Unit –
Council Post Office – Council, ID                                                                     Marshalltown, IA
FF-AR-05-215; 9/7/2005                             Hartford Main Post Office – Hartford, CT           FF-AR-05-174; 6/30/2005
                                                   FF-AR-05-172; 7/11/2005
Curwensville Post Office – Curwensville, PA                                                           Marysville Business Mail Entry Unit –
FF-AR-05-104; 4/6/2005                             Hartsville Business Mail Entry Unit –              Marysville, KS
                                                   Hartsville, SC                                     FF-AR-05-164; 6/22/2005
Dallas Business Mail Entry Unit – Dallas, TX       FF-AR-05-135; 5/17/2005
FF-AR-05-167; 6/30/2005                                                                               Mason City Self-Service Postal Center –
                                                   Hayward Business Mail Entry Unit – Hayward, CA     Mason City, IA
Dallas Main Post Office – Dallas, TX               FF-AR-05-204; 8/12/2005
FF-AR-05-219; 9/13/2005                                                                               FF-AR-05-221; 9/13/2005
                                                   Highland Park Business Mail Entry Unit –           McAlester Business Mail Entry Unit –
Daytona Beach Business Mail Entry Unit –           Highland Park, IL
Daytona Beach, FL                                                                                     McAlester, OK
                                                   FF-AR-05-109; 4/7/2005                             FF-AR-05-145; 6/2/2005
FF-AR-05-140; 5/23/2005
                                                   Highlands Ranch Branch – Littleton, CO             McLean Self-Service Postal Center –
Deep River Business Mail Entry Unit –              FF-AR-05-114; 4/19/2005
Deep River, CT                                                                                        McLean, VA
FF-AR-05-201; 8/17/2005                            Hope Mills Post Office – Hope Mills, NC            FF-AR-05-119; 4/25/2005
                                                   FF-AR-05-157; 6/22/2005                            Mebane Post Office – Mebane, NC
Eastside Station – Lake Charles, LA
FF-AR-05-125; 5/4/2005                             Julian Post Office – Julian, CA                    FF-AR-05-182; 7/18/2005
                                                   FF-AR-05-107; 4/7/2005                             Mobile Post Office – Mobile, AL
Edgerton Business Mail Entry Unit – Edgerton, WI
FF-AR-05-152; 6/13/2005                                                                               FF-AR-05-132; 5/11/2005




                                                                                                                                              April 1 – September 30, 2005 | 41
          Moulton Post Office – Moulton, TX                  Pleasant Hill Post Office – Pleasant Hill, IL   Southside Station – Richmond, VA
          FF-AR-05-173; 6/30/2005                            FF-AR-05-123; 5/2/2005                          FF-AR-05-131; 5/10/2005
          Mount Vernon Business Mail Entry Unit –            Pontiac Main Post Office – Pontiac, MI          Spokane Business Mail Entry Unit – Spokane, WA
          Mount Vernon, IN                                   FF-AR-05-153; 6/15/2005                         FF-AR-05-194; 7/28/2005
          FF-AR-05-130; 5/10/2005
                                                             Port Huron Business Mail Entry Unit –           Stockton Business Mail Entry Unit – Stockton, CA
          Mountain Road Branch – Glen Allen, VA              Port Huron, MI                                  FF-AR-05-149; 6/8/2005
          FF-AR-05-147; 6/6/2005                             FF-AR-05-211; 8/23/2005
                                                                                                             Sykesville Post Office – Sykesville, MD
          New Monmouth Branch – Middletown, NJ               Punta Gorda Post Office – Punta Gorda, FL       FF-AR-05-117; 4/25/2005
          FF-AR-05-185; 7/21/2005                            FF-AR-05-184; 7/20/2005
                                                                                                             Tampa Main Office Window Unit – Tampa, FL
          Newburyport Business Mail Entry Unit –             Quincy Business Mail Entry Unit – Quincy, FL    FF-AR-05-229; 9/27/2005
          Newburyport, MA                                    FF-AR-05-141; 5/31/2005
          FF-AR-05-158; 6/21/2005                                                                            Thousand Oaks Main Post Office –
                                                             Reynoldsburg Finance Station –                  Thousand Oaks, CA
          Niagara Business Mail Entry Unit – Niagara, NY     Reynoldsburg, OH                                FF-AR-05-156; 6/24/2005
          FF-AR-05-136; 5/18/2005                            FF-AR-05-179; 7/13/2005
                                                                                                             Truro Post Office – Truro, MA
          Norfolk Business Mail Entry Unit – Norfolk, NE     Rice Lake Post Office – Rice Lake, WI           FF-AR-05-128; 5/10/2005
          FF-AR-05-227; 9/22/2005                            FF-AR-05-129; 5/9/2005
                                                                                                             Tuscaloosa Automated Postal Center –
          North Branford Business Mail Entry Unit –          Ripley Post Office – Ripley, TN                 Tuscaloosa, AL
          North Branford, CT                                 FF-AR-05-178; 7/7/2005                          FF-AR-05-116; 4/21/2005
          FF-AR-05-220; 9/14/2005
                                                             Rockland Business Mail Entry Unit –             Tuscaloosa Business Mail Entry Unit –
          Omaha Business Mail Entry Unit – Omaha, NE         Rockland, ME                                    Tuscaloosa, AL
          FF-AR-05-213; 8/31/2005                            FF-AR-05-216; 9/7/2005                          FF-AR-05-168; 7/13/2005
          Orting Post Office – Orting, WA                    Salisbury Business Mail Entry Unit –            Utica Business Mail Entry Unit – Utica, NY
          FF-AR-05-137; 5/20/2005                            Salisbury, MD                                   FF-AR-05-202; 8/17/2005
                                                             FF-AR-05-159; 6/20/2005
          Pasadena Business Mail Entry Unit –                                                                Walls Business Mail Entry Unit – Walls, MI
          Pasadena, CA                                       San Carlos Main Post Office – San Carlos, CA    FF-AR-05-110; 4/11/2005
          FF-AR-05-192; 7/27/2005                            FF-AR-05-151; 6/9/2005
                                                                                                             Westfield Business Mail Entry Unit –
          Peoria Station Automated Postal Center –           San Leandro Business Mail Entry Unit –          Westfield, MA
          Peoria, AZ                                         San Leandro, CA                                 FF-AR-05-138; 5/31/2005
          FF-AR-05-188; 7/27/2005                            FF-AR-05-133; 5/19/2005
                                                                                                             Westport Business Mail Entry Unit –
          Placerville Post Office – Placerville, CA          Sandy Creek Station Automated Postal Center –   Westport, CT
          FF-AR-05-127; 5/6/2005                             El Paso, TX                                     FF-AR-05-191; 7/27/2005
                                                             FF-AR-05-122; 5/2/2005
          Plainville Post Office – Plainville, CT                                                            Westwood Main Post Office – Westwood, NJ
          FF-AR-05-222; 9/21/2005                            Santa Ana Processing and Distribution Center    FF-AR-05-180; 7/27/2005
                                                             Window Unit – Santa Ana, CA
          Plaza Vending Self-Service Postal Center –         FF-AR-05-217; 9/26/2005                         Williston Business Mail Entry Unit – Williston, NC
          Pasadena, CA                                                                                       FF-AR-05-226; 9/20/2005
          FF-AR-05-181; 7/13/2005                            South Padre Island Branch –
                                                             South Padre Island, TX
                                                             FF-AR-05-108; 4/7/2005


            INFORMATION SYSTEMS
           National Voice Services – Savings Opportunities
           IS-AR-05-016; 9/30/2005


           NETWORK PROCESSING
          Mail Evaluation, Readability and Lookup
          INstrument (MERLIN) Internal User
          Satisfaction Survey
          NO-MA-05-002; 7/27/2005




42 | Semiannual Report to Congress
                                                                                                                                                                                appendix A
 SUPPLY MANAGEMENT
Audit of Certified Price Adjustment Claim           Audit of Firm Fixed Price Proposal Submitted      Estimated Fiscal Year 2005 Supply Chain
Submitted by Evergreen Aviation Ground Logistics    by Northrop Grumman Corporation, Electronic       Management Impact Associated With National
Enterprises, Incorporated, Under Contract           Systems Company, Under Solicitation Number        Office Supply Contract
Number SNET-01-SER                                  3BMHRD-03-Z5541                                   CA-OT-05-003; 8/19/2005
CA-CAR-05-016; 4/6/2005                             CA-CAR-05-022; 7/12/2005
                                                                                                      Estimated Supply Chain Management Impact
Audit of Equitable Price Adjustment Claim           Audit of Firm Fixed Price Proposal Submitted      Associated With National Office Supply Contract
Submitted by Advanced Construction                  by Northrop Grumman Corporation, Electronic       CA-MA-05-002; 9/7/2005
Technologies, Ltd. Under Contract Number            Systems, Company, Under Solicitation Number
362575-00-B-0399                                    3BMHRD-03-Z5541                                   Financial Condition and Capability of American
CA-CAR-05-020; 6/15/2005                            CA-CAR-05-021; 6/27/2005                          Bank Note Company
                                                                                                      CA-CAR-05-023; 8/25/2005
Audit of Firm Fixed Price Proposal Submitted by     Audit of Firm Fixed Price Proposal Submitted
Bowe Bell & Howell, Under Solicitation Number       by Siemens Logistics and Assembly Systems         Limited Scope Review of Purchasing System
W52H09-04-R-0133                                    Incorporated, Postal Automation Under             at Siemens Logistics and Assembly Systems,
CA-CAR-05-025; 9/29/2005                            Solicitation Number 3AAERD-05-A-1589              Incorporated, Postal Automation
                                                    CA-CAR-05-018; 5/19/2005                          CA-CAR-05-024; 8/29/2005
Audit of Firm Fixed Price Proposal Submitted by
Bowe Bell & Howell, Under Solicitation Number       Audit of Fiscal Year 2000 Incurred Costs          Postal Automated Redirection System’s Contract
W52H09-04-R-0133                                    Submitted by New Breed Corporations               Incentives
CA-CAR-05-026; 9/29/2005                            CA-CAR-05-019; 5/20/2005                          CA-AR-05-003; 8/15/2005

Audit of Firm Fixed Price Proposal Submitted by     Electronic Data Systems Contract Invoice
International Business Machines, Global Services,   Approval Procedures
Business Consulting Services – Federal, Under       CA-AR-05-002; 5/13/2005
Proposal Number APC 035R3
CA-CAR-05-017; 5/3/2005

 TRANSPORTATION
Bulk Mail Center Highway Transportation Routes      Surface Networks – Intermodal Rail and            Surface Transportation – Bulk Mail Center
– Pacific Area                                      Highway Transportation Between the Pacific and    Highway Transportation Routes – Northeast Area
NL-AR-05-012; 9/21/2005                             Southeast Areas                                   NL-AR-05-013; 9/26/2005
                                                    NL-AR-05-011; 9/19/2005
Commercial Air Network Operations                                                                     Surface Transportation – Bulk Mail Center
NL-AR-05-015; 9/28/2005                             Surface Transportation – Bulk Mail Center         Highway Transportation Routes – Southwest Area
                                                    Highway Transportation Routes – Capital Metro     NL-AR-05-008; 8/3/2005
Mail Transport Equipment Service Center             Area
Network – Highway Transportation Routes – New       NL-AR-05-009; 9/2/2005                            Vehicle Management – National Trailer Lease
York Metro Area                                                                                       – Unresolved Audit Recommendations
NL-AR-05-014; 9/28/2005                             Surface Transportation – Bulk Mail Center         NL-MA-05-001; 4/21/2005
                                                    Highway Transportation Routes – New York
                                                    Metro Area
                                                    NL-AR-05-007; 6/9/2005

REVENUE
 DELIVERY AND RETAIL
Balloon Rate and Parcel Surcharges                  Vending Equipment Sales and Service Data
DR-AR-05-017; 9/29/2005                             – Atlanta District
                                                    DR-AR-05-016; 9/26/2005


 MARKETING
Expedited Packaging Supplies                        International Customized Mail Agreements
MS-AR-05-002; 9/28/2005                             MS-AR-05-001; 8/16/2005


 NETWORK PROCESSING
Efficiency of the Airmail Records Unit at the Los   Efficiency of the Los Angeles International
Angeles International Service Center                Service Center
NO-AR-05-010; 4/28/2005                             NO-AR-05-011; 6/17/2005
Efficiency of the Airmail Records Unit at the San   Efficiency Review of the Canton, OH, Processing
Francisco International Service Center              and Distribution Facility
NO-AR-05-012; 9/6/2005                              NO-AR-05-013; 9/22/2005




                                                                                                                                            April 1 – September 30, 2005 | 43
          HUMAN CAPITAL
            HUMAN CAPITAL
          Action Taken By Pacific Area Regarding              Complaints of a Hostile Work Environment at an     Office of Workers’ Compensation Programs’
          Complaints of a Hostile Work Environment in the     Alabama District Post Office                       Schedule Award Payments to Postal Service
          Sacramento District                                 HM-AR-05-007; 5/31/2005                            Employees in the Pacific Area – Report II
          HM-AR-05-010; 8/11/2005                                                                                HM-AR-05-011; 9/29/2005
                                                              Complaints of a Hostile Work Environment at
          Complaints of a Hostile Work Environment at a       Five Houston District Post Offices                 Verification of the Anticipated and Realized
          Bay Valley District Processing and Distribution     HM-AR-05-004; 4/29/2005                            Medical Cost Savings Resulting From the Postal
          Center                                                                                                 Service’s Contracts With First Health Group
          HM-AR-05-008; 6/8/2005                              Complaints of a Hostile Work Environment in the    Corporation
                                                              Santa Ana District                                 HM-AR-05-005; 5/9/2005
          Complaints of a Hostile Work Environment at a       HM-AR-05-003; 4/22/2005
          Rio Grande District Processing and Distribution                                                        White Paper on the Nature of Grievances and the
          Center                                              Complaints Regarding Personnel Issues in the       Initiatives Taken to Reduce and Prevent Them
          HM-AR-05-006; 5/17/2005                             Caribbean District                                 HM-OT-05-001; 9/30/2005
                                                              HM-AR-05-009; 7/22/2005


          PRESERVE INTEGRITY AND SECURITY
            ENGINEERING
          Responses to Incidents Involving Suspicious Mail
          and Unknown Powders and Substances
          DA-MA-05-001; 5/27/2005


            FACILITIES
           Data Integrity and Reliability of the Facilities   Environmental Remediation Project at the
           Single Source Provider System                      Pompano Beach Auxiliary Vehicle Maintenance
           FA-MA-05-002; 8/11/2005                            Facility
                                                              FA-MA-05-001; 4/28/2005

            INFORMATION SYSTEMS
          Assessment of Patch Management Practices            Mainframe and Midrange Software Controls at        Security Vulnerability Assessment of Selected
          IS-AR-05-011; 6/30/2005                             the Eagan, MN, and San Mateo, CA Information       Financial Systems at the Host Computing
                                                              Technology and Accounting Service Centers          Services Center, Eagan, MN
          CA-ACF2 Controls at the Eagan, MN, and              IS-AR-05-013; 8/17/2005                            IS-CS-05-004; 8/17/2005
          San Mateo, CA Information Technology and
          Accounting Service Centers                          Physical Security Controls at the Eagan, MN;       Security Vulnerability Assessment of the
          IS-AR-05-014; 8/17/2005                             San Mateo, CA; and St. Louis, MO, Information      Advanced Computing Environment Phase II
                                                              Technology and Accounting Service Centers          IS-CS-05-003; 5/20/2005
          Evaluation of Postal Service Information Security   IS-AR-05-012; 7/26/2005
          Program for Fiscal Year 2004                                                                           Software Monitor Controls at the Eagan,
          IS-MA-05-001; 4/25/2005                             Security Assessment Summary Report                 Minnesota, and San Mateo, CA, Information
                                                              IS-AR-05-010; 6/3/2005                             Technology and Accounting Service Centers
          Human Capital Enterprise SAP Human Resources                                                           IS-AR-05-009; 5/31/2005
          Project                                             Security Controls in Voice Systems – Louisiana
          IS-AR-05-015; 9/15/2005                             District
                                                              IS-AR-05-007; 4/18/2005
          Integrated Database Management System
          Controls at the Eagan, MN, Information              Security Vulnerability Assessment of Automated
          Technology and Accounting Service Center            Postal Centers
          IS-AR-05-008; 5/12/2005                             IS-CS-05-005; 9/23/2005


            OVERSIGHT OF INVESTIGATIVE ACTIVITIES
          Organizational Efficiency and Program               Postal Service Law Enforcement Vehicles            Qualitative Assessment Review – Postal
          Performance of the Postal Inspection Service        SA-AR-05-002; 5/24/2005                            Inspection Service’s Houston Division
          SA-OT-05-001; 8/19/2005                                                                                QAR-QA-05-007; 8/2/2005
                                                              Postal Service Practices with Regard to Handling
          Postal Inspection Service’s Controls Over           Suspicious Mail
          Firearms                                            SA-OT-05-002; 5/20/2005
          SA-AR-05-003; 5/4/2005

            TRANSPORTATION
          Air Transportation Networks International Mail
          – Extra Territorial Offices of Exchange
          NL-AR-05-010; 9/9/2005

          Strategic Direction
            DELIVERY AND RETAIL
          Automated Deployment Strategy
          DR-AR-05-015; 9/7/2005




44 | Semiannual Report to Congress
Appendix B




                                                                                                                                                                            appendix B
FINDINGS OF QUESTIONED COSTS
For the period April 1 – September 30, 2005
Questioned Costs: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.


OFFICE OF INSPECTOR GENERAL AND U.S. POSTAL INSPECTION SERVICE
As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.
                                                                                                                          Total          Unsupported Costs
                                                                                                                    Questioned       Included in Questioned
Description                                                                         Number of Reports                    Costs                        Costs
Reports for which no management decision was made at the beginning of the
reporting period.                                                                                    21            $77,105,693                    $6,716,428
Reports requiring management decision that were issued during the reporting
period.                                                                                              25            $58,230,112                      $994,664

TOTAL                                                                                               46          $135,335,805                    $7,711,092
Reports for which a management decision was made during the reporting period
(i+ii).                                                                                              25            $53,487,736                      $193,284

    (i) Dollar value of disallowed cost                                                                            $49,021,092                      $193,284

    (ii) Dollar value of cost not disallowed                                                                        $4,466,644                           —
Reports for which no management decision was made by the end of the
reporting period. Negotiations are ongoing.                                                          21            $81,848,069                    $7,517,808
Reports for which no management decision was made within six months of
issuance (See Note 1 for a list of individual reports).                                               2               $997,943                           —
Reports for which no management decision was made within one year of
issuance (See Note 2 for a list of individual reports).                                               7            $61,735,596                    $6,529,157




Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                                                         Unsupported Costs
                                                                                                              Total Questioned       Included in Questioned
Subject                                                                Report Number         Report Date                 Costs                        Costs
Audit of Incurred Cost Price Adjustment Proposal and Reformation
Proposal Submitted by Matheson Flight Extenders, Incorporated
Under Contract Number SNET-01-WR                                       CA-CAR-05-004           12/1/2004              $975,451                           —
Audit of Firm Fixed Price Base Proposal Submitted by Lockheed
Martin Systems Integration – Owego, Under
Solicitation Number 3AAERD-04-Z-6397                                   CA-CAR-05-012            2/3/2005               $22,492                           —

OFFICE OF INSPECTOR GENERAL TOTAL                                                                                     $997,943                           —




                                                                                                                                        April 1 – September 30, 2005 | 45
Appendix B
FINDINGS OF QUESTIONED COSTS
For the period April 1 – September 30, 2005
Questioned Costs: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.




Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                                                    Total Questioned          Unsupported Costs Included
Subject                                                 Report Number           Report Date                    Costs                 In Questioned Costs

Contract Audit – M.E.S. Incorporated                   CA-CAR-02-045              6/28/2002               $1,053,263                           $134,340
Contract Audit – Bell & Howell Mail and Messaging
Technologies                                           CA-CAR-03-002             10/16/2002                 $343,759                                 —

Contract Audit – D. L. Kaufman, Incorporated           CA-CAR-03-011              2/11/2003               $4,028,935                                 —
Audit of Termination for Convenience Price
Adjustment Claim Submitted by Abcon Associates,
Incorporated                                           CA-CAR-04-022              6/16/2004               $4,478,385                         $2,702,465
Vehicle Management – Delivery Vehicles – Buy vs.
Lease                                                    NL-AR-04-005             9/30/2004              $42,751,032
Vehicle Management – Trailer Requirements-
Northeast Area                                           NL-AR-04-006             9/30/2004               $2,016,475                         $2,016,475

OFFICE OF INSPECTOR GENERAL TOTAL                                                                        $54,671,849                         $4,853,280

Contract Audit; 181-1294644- AC(1)                                                 11/17/99               $7,063,747                         $1,675,877

POSTAL INSPECTION SERVICE TOTAL                                                                           $7,063,747                         $1,675,877

COMBINED TOTAL                                                                                           $61,735,596                         $6,529,157




46 | Semiannual Report to Congress
APPENDIX C




                                                                                                                                                                                                          appendix C
Recommendations That Funds Be Put to Better Use
For the period April 1 – September 30, 2005
Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.
As required by the IG Act, the following pages show the total number of audit reports and the total dollar value recommendations for funds that management can put
to better use.




           OFFICE OF INSPECTOR GENERAL
           Description                                                                                                                 Number of Reports                        Dollar Value

           Reports for which no management decision was made at the beginning of the reporting period.                                                      9                 $162,288,441

           Reports requiring management decision that were issued during the reporting period.                                                             20                 $146,674,881

           TOTAL                                                                                                                                           29                 $308,963,322

           Reports for which a management decision was made during the report period (I + ii).                                                             20                 $218,882,214

              (i) Value of recommendations agreed to by management                                                                                                            $125,824,314

              (ii) Value of recommendations that management did not agree to                                                                                                    $93,057,900

           Reports for which no management decision was made by the end of the reporting period.1                                                           9                   $90,081,108
           Reports for which no management decision was made within six months of issuance.
           (See Note 1 for a list of individual reports.)                                                                                                                                  —
           Reports for which no management decision was made within one year of issuance.
           (See Note 2 for a list of individual reports.)                                                                                                   4                   $71,175,672



          Note 1 - There were no reports for which no management decision was made within six months of issuance.



          Note 2 - Reports for which no management decision was made within one year of issuance:

                                                                                                                                                                Recommend Funds Put to
           Subject                                                                                                    Report Number        Report Date                      Better Use

           Bulk Fuel Purchase Plan                                                                                     TR-AR-01-004          7/27/2001                          $15,918,035

           Vehicle Management – Trailer Requirements – Northeast Area                                                  NL-AR-04-006          9/30/2004                           $7,300,150

           Vehicle Management – Delivery Vehicles – Buy vs. Lease                                                      NL-AR-04-005          9/30/2004                          $40,296,954

           Bulk Mail Center Highway Transportation Routes – Great Lakes Area                                           NL-AR-04-004          9/29/2004                           $7,660,533

           TOTAL                                                                                                                                                                $71,175,672

          1� Included are amounts where management agreed to take the recommended corrective action but could not comment on some of the potential savings until analyses were completed. The
            majority of identified savings were agreed to and decisions were reflected in a prior reporting period.




                                                                                                                                                                      April 1 – September 30, 2005 | 47
 APPENDIX D
 Reports with Significant Recommendations Pending
 Corrective Actions
 For the period April 1 – September 30, 2005
 As required by the IG Act, the following pages include a list of each audit report for which no management decision was made by the end of the reporting
 period.

 OFFICE OF INSPECTOR GENERAL

Issue              Number of                                                                                                                  Report
Date           Recommendations*        Report Title                                                                                           Number

7/27/2001               5              Bulk Fuel Purchase Plan                                                                                TR-AR-01-004

2/22/2002               3              Review of the Facilities Management System for Windows                                                  IS-AR-02-003

3/29/2002               1              Review of Contracts Associated with Biohazard Threat                                                   CQ-MA-02-002
                                       Southwest Area’s Efforts in Obtaining Appropriate Chargeback Credits for Identified Wage Compensa-
5/8/2002                1              tion Overpayments and Refundable Disbursements                                                         LH-AR-02-003

7/9/2002                4              Review of eBusiness Agreements                                                                         EM-AR-02-012

9/3/2002                2              Postal Service’s Corporate Succession Planning Process                                                 LH-AR-02-004

9/26/2002               1              Utility Payments to Commonwealth Edison                                                                FT-AR-02-015

9/27/2002               3              Effectiveness of the Postal Service’s Asset Locator                                                    FT-AR-02-017

9/30/2002               2              Associate Supervisor Program in the Great Lakes Area                                                   LH-AR-02-005
                                       Fiscal Year 2002 Postal Service Financial Statements Audit – St. Louis Information Technology and
1/30/2003               1              Accounting Service Center                                                                              FT-AR-03-008
                                       Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and Des Moines Bulk
3/28/2003               2              Mail Centers                                                                                           CQ-AR-03-001

6/13/2003               1              Postal Inspection Service Tracking of Investigative Workhours and Activity                             SA-AR-03-003

8/21/2003               2              Propriety of Postal Service Utility Payments                                                           FT-AR-03-011
                                       Efficiency of Work Performed by Business Mail Entry Clerks in the San Francisco Business Mail Entry
9/25/2003               2              Unit                                                                                                   AO-AR-03-002

9/29/2003               1              Enhanced Carrier Route Standard Mail Worksharing Discounts                                             AC-AR-03-006

9/30/2003               8              General Controls at the Engineering Research and Development Center                                     IS-AR-03-008

9/30/2003               3              Postal Service and Union Labor Relations                                                               LH-AR-03-012

3/10/2004               1              Information Systems Disaster Recovery Process                                                           IS-AR-04-004

3/30/2004               2              Compliance with the Bank Secrecy Act                                                                   FF-AR-04-100
                                       Efficiency of the San Francisco International Service Center and the General Services Administration
3/31/2004               1              Facility                                                                                               NO-AR-04-006

3/31/2004               1              Efficiency of the Oakland International Service Facility and the Regatta Facility                      NO-AR-04-007

4/21/2004               1              Postal Inspection Service’s Postal Police Officers                                                     SA-AR-04-001
                                       Follow-up of the Network Security and Security Testing of Load Balancers at the San Mateo Host
6/8/2004                2              Computing Services                                                                                      IS-AR-04-006

9/24/2004               1              Technology Acquisition Management                                                                      DA-AR-04-003

9/24/2004               1              Efficiency of the New York International Service Center                                                NO-AR-04-009

9/29/2004               3              Bulk Mail Center Highway Transportation Routes – Great Lakes Area                                      NL-AR-04-004

9/29/2004               3              Vehicle Management – Trailer Requirements – Northeast Area                                             NL-AR-04-006

9/30/2004               1              Fiscal Year 2003 Supply Chain Management Savings                                                       CA-AR-04-003

                       * Pending corrective action



48 | Semiannual Report to Congress
                                                                                                                                                                         appendix D
Issue            Number of                                                                                                                 Report
Date         Recommendations*      Report Title                                                                                            Number

9/30/2004           1              Advanced Facer Canceler System Improvements                                                             DA-AR-04-004

9/30/2004           2              Postal Service’s Business Partner Connectivity                                                           IS-AR-04-014

9/30/2004           5              Vehicle Management – Delivery Vehicles – Buy vs. Lease                                                  NL-AR-04-005

10/25/2004          1              Reports Distribution                                                                                     IS-AR-05-001

10/27/2004          2              Self-Service Vending Program – Pacific Area                                                             DR-AR-05-006

12/10/2004          2              Self-Service Vending Program – Southwest Area                                                           DR-AR-05-010

12/21/2004          1              Automated Postal Center Program Management                                                              CA-AR-05-001
                                   Fiscal Year 2004 Postal Service Financial Statements Audit – Eagan Information Technology and
1/10/2005           2              Accounting Service Center                                                                                FT-AR-05-005
                                   Mail Transport Equipment Service Center Network – Network Realignment – Pittsburgh, Detroit,
1/25/2005           2              Cleveland                                                                                               NL-AR-05-001

2/1/2005            2              Self-Service Vending Program – Northeast Area                                                           DR-AR-05-011
                                   Fiscal Year 2004 Postal Service Financial Statements Audit – St. Louis Information Technology and
3/15/2005           1              Accounting Service Center                                                                                FT-AR-05-009

3/17/2005           2              Surface Transportation – Bulk Mail Center Highway Transportation Routes – Eastern Area                  NL-AR-05-003

3/18/2005           1              Surface Transportation – Bulk Mail Center Highway Transportation Routes – Southeast Area                NL-AR-05-005

3/29/2005           1              Efficiency Review of the Akron, OH, Processing and Distribution Center                                  NO-AR-05-009

4/18/2005           3              Security Controls in Voice Systems – Louisiana District                                                  IS-AR-05-007

4/21/2005           2              Vehicle Management – National Trailer Lease – Unresolved Audit Recommendations                          NL-MA-05-001

6/3/2005            4              Security Assessment Summary Report                                                                       IS-AR-05-010

6/9/2005            1              Surface Transportation – Bulk Mail Center Highway Transportation Routes – New York Metro Area           NL-AR-05-007

6/17/2005           1              Efficiency of the Los Angeles International Service Center                                              NO-AR-05-011

7/22/2005           5              Complaints Regarding Personnel Issues in the Caribbean District                                         HM-AR-05-009
                                   Physical Security Controls at the Eagan, MN; San Mateo, CA; and St. Louis, MO, Information Technology
7/26/2005           1              and Accounting Service Centers                                                                           IS-AR-05-012

8/3/2005            2              Surface Transportation – Bulk Mail Center Highway Transportation Routes – Southwest Area                NL-AR-05-008
                                   Action Taken by Pacific Area Regarding Complaints of a Hostile Work
8/11/2005           1              Environment in the Sacramento District                                                                  HM-AR-05-010

9/21/2005           3              Surface Transportation – Bulk Mail Center Highway Transportation Routes – Pacific Area                  NL-AR-05-012

9/23/2005           1              Fiscal Year 2005 Financial Installation Audit – Cardiss Collins Postal Store – Chicago, IL               FF-AR-05-228

9/26/2005           2              Surface Transportation – Bulk Mail Center Highway Transportation Routes – Northeast Area                NL-AR-05-013
                                   Mail Transport Equipment Service Center Network – Highway Transportation Routes – New York Metro
9/28/2005           1              Area                                                                                                    NL-AR-05-014

9/28/2005           3              Commercial Air Network Operations                                                                       NL-AR-05-015

9/29/2005           1              Balloon Rate and Parcel Surcharges                                                                      DR-AR-05-017

9/29/2005           3              Delivery Vehicle Utilization – General Services Administration Leased Vehicles                          DR-AR-05-018

9/30/2005           1              Flats Identification Code Sort for Automated Flats Sorting Machine 100s                                 DA-AR-05-001

9/30/2005           3              National Voice Services – Savings Opportunities                                                          IS-AR-05-016

                   * Pending corrective action




                                                                                                                                     April 1 – September 30, 2005 | 49
APPENDIX E
Significant Management Decisions In Audit Resolution
For the period April 1 – September 30, 2005
As required by the IG Act, the following page discusses information concerning any significant management decision with which the Inspector General
disagrees and is currently in audit resolution.


OFFICE OF INSPECTOR GENERAL
The OIG has no significant management decisions in audit resolution as of September 30, 2005.




Appendix F
INVESTIGATIVE STATISTICS1
For the period April 1, 2005, through September 30, 2005


                                                                                          Employee Mail
                                              Misconduct Statistics                      Theft Statistics4

Investigations completed                                            2,131                            1,157

Arrests/Information/Indictments                                         81                              607
Convictions/Pretrial diversions        2
                                                                        57                              354
Administrative actions:                                               306                               621
Cost avoidance                                               $25,730,568                                 —
Fines, restitution, and recoveries                           $54,193,376                                 —
     Amount to Postal Service      3
                                                              $4,344,881                                 —

1� Statistics include joint investigations with the U.S. Postal Inspection Service and other law enforce-
  ment agencies.
2� Convictions reported in this frame may be related to arrests made in prior reporting periods.
3� Amount included in fines, restitution, and recoveries.
4� Cases worked solely by the Postal Inspection Service.




50 | Semiannual Report to Congress
APPENDIX G




                                                                                                                                                                                                  appendix G
SUMMARY OF U.S. POSTAL INSPECTION SERVICE ACTIONS
UNDER 39 USC 3013
For the period April 1 – September 30, 2005
The Postal Reorganization Act requires the Postmaster General to furnish information on the investigative activities of the Postal Service by the U.S. Postal Inspection Service on
a semiannual basis. With passage of the Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service’s reporting obligations were changed. The Act
requires the Postal Service to submit its semiannual report on investigative activities to the Office of Inspector General rather than to the Board of Governors, expands the subject
matter that must be reported, and revises the reporting schedule to coordinate with the OIG Semiannual Report to Congress. The information in the report includes actions directed
at combating crimes involving the mail; costs and expenditures devoted to Postal Service investigative activities; use of subpoena power; and any additional information the OIG
may require.
The following information summarizes the administrative and judicial actions initiated and resolved during the reporting period. These actions include the issuance of
cease and desist orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking to intercept fraudulent mailings.


                                                                  False           Cease &
                           Complaints    Consent         Representation            Desist
 Type of Scheme                 Filed Agreements                Orders             Orders
 Advance fee                         4               2                   1                4
 False billings                     17               2                   5                6
 Internet auction                    1               1                   0                1
 Merchandise:
    Failure to furnish               2               2                   1                3
    Misrepresentation                3               1                   0                2
 Telemarketing                       1               0                   1                3
 Work at home                       33              24                 10               28
 TOTAL                              61              32                 18               47




 Investigative Expenses                                                                       Subpoenas
 Type                                                     Dollar Amount                       Case #                 Date Issued      Scheme
 Personnel                                                 $165,685,399                       05-001                 4/13/2005        Sweepstakes
 Non personnel                                                47,338,486                      05-002                 4/13/2005        Sweepstakes
 Total                                                     $213,023,885                       05-003                 4/13/2005        Sweepstakes
 Capital obligations                                         $33,332,370                      05-004                 4/5/2005         False representations
                                                                                              05-005                 6/3/2005         Solicitations in the guise of an invoice
                                                                                              05-006                 6/8/2005         False representations
                                                                                              05-007                 6/8/2005         False representations
                                                                                              05-008                 6/29/2005        Work-at-home scheme
                                                                                              05-009                 7/13/2005        False representations
 OTHER ADMINISTRATIVE ACTIONS
 Administrative action requests                                         66
 Temporary restraining orders requested                                   3
 Temporary restraining orders issued                                      3
 Civil injunctions (Section 1345) requested                               0
 Civil injunctions (Section 1345) issued                                  0
 Cases using direct purchase authority                                    2
 Civil penalties imposed                                          $60,000
 Expenditures incurred for:
    Test purchases                                                     $53
    Withholding mail orders issued                                      24
    Voluntary discontinuances                                           19




                                                                                                                                                              April 1 – September 30, 2005 | 51
Appendix H
CLOSED CONGRESSIONAL AND BOARD OF GOVERNORS INQUIRIES
For the period April 1 – September 30, 2005
This appendix lists the 27 Congressional and Governors inquiries the OIG closed during this reporting period. The OIG reviewed these inquiries to help identify
systemic issues and to determine the need for future Postal Service-wide audits.



 COST CONTROL
 Requestor                           Allegations/Concerns                                                                                       Closure Date

 Representative, Texas               Referral of allegations of employees working off-the-clock and falsifying time sheets.                        4/18/2005
                                     Response to complaint of uncompensated overtime work by manager and declination to reexamine
 Representative, Illinois            closed investigation into falsification of time.                                                              5/10/2005

 Representative, Alabama             Review of demand for back pay following expiration of Workman’s Compensation.                                 5/11/2005

 Senator, West Virginia              Referral of complaint of delay in establishing cluster-box delivery of mail to new community.                 9/21/2005

 Representative, California          Referral of complaint of late delivery of mail.                                                               9/22/2005



 REVENUE
 Requestor                           Allegations/Concerns                                                                                       Closure Date
                                     Review of employee complaint of non-payment for a submission under the IDEA program and referral
 Representative, California          to payroll office.                                                                                            5/10/2005



 HUMAN CAPITAL
 Requestor                           Allegations/Concerns                                                                                       Closure Date
                                     Audit and investigative inquiry into 18 issues related to employee complaints of inappropriate
 Representative, Illinois            personnel actions and mismanagement in Puerto Rico facilities.                                                7/29/2005

 Representative, California          Workplace climate review, Bay Valley.                                                                         6/23/2005
                                     Declination of request for renewed investigation of alleged false accusations, investigation, and
 Representative, Virginia            defamation by Postal Service officials.                                                                         4/6/2005
                                     Declination of further review of allegations of inappropriate new job postings and misreported work
 Senator, California                 hours in order to increase performance ratings.                                                                 4/4/2005

 Representative, Texas               Referral of allegation of non-compliance with Americans with Disabilities Act at a Texas post office.           4/4/2005

 Senator, Virginia                   Request for investigatory records; treated as a FOIA request.                                                 5/17/2005

 Representative, Alabama             Referral of demand to return to work and receive back pay following medical absence.                          5/18/2005
                                     Review of allegations of unfair hiring practices and preferential treatment already addressed by
 Senator, Alaska                     management.                                                                                                   6/29/2005
                                     Review of complaint of personnel infractions and systematic discrimination in the Mississippi District
 Representative, Mississippi         and referral to Area office.                                                                                    9/2/2005



 PRESERVE INTEGRITY AND SECURITY
 Requestor                           Allegations/Concerns                                                                                       Closure Date

 Senator, California                 Review safety inspection certifications and scheduling of San Francisco stations.                             4/25/2005

 Representative, Michigan            Review of steps needed to safeguard post office facility from improper entry.                                   4/8/2005
                                     Review of allegations by former employee that a “suspicious” letter was pulled from a Postal Service
 Representative, Florida             machine three weeks prior to 9/11/01 and not properly reviewed.                                               6/16/2005

 Senator, Virginia                   Referral of complaint of threatening mail.                                                                      6/6/2005




52 | Semiannual Report to Congress
                                                                                                                                                                       appendix H
Requestor                    Allegations/Concerns                                                                               Closure Date

Senator, Virginia            Referral of mail fraud and identity theft request for assistance.                                    6/28/2005

Representative, Texas        Referral of complaint of threatening hate mail.                                                       7/8/2005
                             Review of allegations stemming from an incident during surveillance conducted by the Postal
Representative, California   Inspection Service.                                                                                  8/10/2005

Representative, Alabama      Referral of complaint of stolen mail and efforts to address it.                                      7/26/2005

Senator, Virginia            Referral of complaint of a stolen check.                                                              8/4/2005

Representative, Florida      Request for investigatory records; treated as a FOIA request.                                         9/9/2005



STRATEGIC DIRECTION
Requestor                    Allegations/Concerns                                                                               Closure Date
                             Request for audit determinations of whether postal rate increases are properly supported by data
Senator, Iowa                systems.                                                                                             6/22/2005
                             Referral of complaint objecting to revised Postal Service procurement regulations and failure to
Representative, Virginia     negotiate fairly.                                                                                    6/30/2005




                                                                                                                                   April 1 – September 30, 2005 | 53
                      supplemental information
                      Investigative case highlights
                      For the period April 1 – September 30, 2005

                      Computer Security Company to Repay Postal Service $1.1 Million            In 2001, we determined that the Postal Service had awarded the
                      A Redwood City, CA,-based contractor agreed to repay the Postal           New York firm 157 contracts, 31 of which were still active. Losses
                      Service $1.1 million on June 20, 2005, to settle allegations of billing   to the Postal Service amounted to $1,424,875 in false claims and
                      for computer network security services it did not perform and for         statements, $275,323 in investigative costs, and $219,544 in
                      work not reimbursable under its contract.                                 interest.
                      As background, in 1998 the Postal Service awarded the firm a              Gas Station Manager Jailed for Stealing Postal Service Funds
                      $5 million contract, which it later expanded to $25 million. From         A New York City U.S. District Court judge sentenced a gas station
                      1998 to 2002, the firm billed the Postal Service more than $21 million    manager on April 15, 2005, to 18 months imprisonment, three
                      under the contract. Our investigation of the firm was prompted by a       years supervised release, and payment of $436,800 in restitution
                      qui tam complaint made to the Hotline. The negotiated settlement          for numerous charges, including stealing government funds
                      resulted when the U.S. Attorney’s Office in San Francisco intervened      and mail fraud. The manager admitted stealing and using Postal
                      in the qui tam action. The settlement released the contractor             Service Voyager account and Personal Identification Number (PIN)
                      from all claims against it once it made final payment to the Postal       information to process phantom fuel purchases over the past five
                      Service. The company stopped active business operations during            years. He acquired PINs by watching postal employees enter them
                      our investigation.                                                        when purchasing fuel. After making fake fuel purchases with the
                      Confronted About a $147,780 Shortage, NJ Postmaster Retires               stolen PINs, the manager then withdrew cash from his drawer
                      On August 4, 2005, South Jersey District managers interviewed a New       equaling the bogus charges.
                      Jersey postmaster who denied embezzling missing Postal Service            Michigan Relief Postmaster Indicted on 61 Counts of
                      funds but opted to retire and repay the shortage of $147,780.
                                                                                                Embezzlement and Theft
                      As background, the South Jersey District Internal Working Group           Our special agents learned that from October 2003 to March
                      identified problems with the stamp vending machine accountabilities       2005, a Michigan relief postmaster embezzled $143,741 via 321
                      at the New Jersey post office in January 2005. The group reported         fraudulent money order transactions. The relief postmaster admitted
                      the problems to the postmaster, who failed to correct the problems.       embezzling approximately $100,000 in Postal Service money orders.
                      The group then reported the problems to the OIG. Our special agents       She was indicted on 61 counts of embezzlement and theft of public
                      identified the shortage in the stamp vending machine accountabilities     money and Postal Service money orders. The postmaster resigned
                      on July 19, 2005, and tried to interview the postmaster, who              from the Postal Service on May 10, 2005 and surrendered to U.S.
                      requested legal representation. Postal Service management placed          marshals on August 18, 2005.
                      the postmaster on administrative leave pending completion of the
                                                                                                As background, we opened an investigation stemming from a
                      ongoing investigation.
                                                                                                discovery made by the Internal Control Working Group for the Greater
                      Court Issues Judgment Against Permit Mailer for Submitting                Michigan District, which found $126,000 in money orders had
                      NSF Checks                                                                been cashed but not remitted at a local post office. The USPIS had
                      The U.S. Attorney’s Office in Los Angeles obtained a default judgment     also been investigating reports of missing money orders from the
                      against a California permit mailer on August 1, 2005, for giving the      same Michigan post office. One money order, which appeared to
                      Postal Service nonsufficient checks.                                      be improperly issued, had been written for $990 and cashed by the
                                                                                                relief postmaster.
                      As background, in FY 2004, the Eagan Accounting Service Center,
                      which provides nonsufficient funds (NSF) check information to             New Jersey Contractor Admits Overcharging Postal Service
                      the Postal Service, received 135,000 returned checks totaling             $184,356
                      approximately $27 million from Postal Service districts nationwide.       A Postal Service contractor pleaded guilty on June 8, 2005, to
                      One California company, a permit mailer, had submitted 36 NSF             charges of postal fund theft. The contractor, who owned a car
                      checks totaling $107,737 to the Postal Service. This company              repair shop and mobile car wash business, billed at least 10 New
                      was one of many permit mailers submitting multiple NSF checks to          Jersey Postal Service facilities for excessive services and repairs
                      the Postal Service, while ignoring requests to pay off the returned       between October 1998 and November 2003. Using the Postal
                      checks. During FY 2004, the company sent one payment of $2,000            Service credit card system to misappropriate money, the contractor
                      toward the returned checks, leaving a debt of $106,637 — including        billed for services not performed, performed at an inflated price, or
                      collection fees of $25 per check — to the Postal Service.                 performed unnecessarily. He also admitted giving supervisory postal
                                                                                                employees and their family members benefits in the form of cash,
                      Firm Pays Back $1,919,742 for False Claims and Statements
                                                                                                free repair services, and used cars. The loss to the Postal Service
                      The U.S. Postal Service received more than $1.9 million from the
                                                                                                was $184,356. This ongoing investigation was prompted by an OIG
                      Department of Justice (DOJ) on September 15, 2005, which acted on
                                                                                                Hotline complaint alleging excessive vehicle maintenance costs and
                      its behalf in a settlement negotiation with a New York management
                                                                                                related manager misconduct.
                      consulting firm. The firm allegedly submitted false claims for travel
                      expenses incurred under contracts with the Postal Service and other       Postal Plant Supervisor Arrested for Misappropriation of Postal
                      U.S. government agencies, and also allegedly submitted inflated and       Funds
                      false invoices for travel rebates it had received.                        A Westchester, NY, Postal Service maintenance supervisor created
                      From 1990 through 2003, the firm sought reimbursement from                a fictitious company to defraud the Postal Service. Beginning in
                      government agencies for nearly $24 million in discounts and rebates       October 2004, he submitted approximately 25 fraudulent invoices
                      it had received and was supposed to turn back to the government.          to his “company” for various services, including pump repairs and




54 | Semiannual Report to Congress
                                                                                                                                                                                      supplemental information
equipment purchases. Another plant maintenance supervisor determined             each of conspiracy to commit mail fraud and health-care fraud and 26
that pump repairs had not been made as claimed.                                  counts of health care fraud.
On August 11, 2005, the maintenance supervisor admitted to special               According to the indictment, the two employees and the parent company
agents that he billed the Postal Service for fraudulent repairs totaling about   conspired to defraud health care benefit programs by submitting false
$20,616 and deposited the Postal Service checks into his personal bank           and fraudulent reimbursement claims to state and federal workers’
account. The total loss to the Postal Service was approximately $200,000.        compensation insurance carriers from late 1999 to mid-2003.
The Postal Service suspended the maintenance supervisor with pay on              We initiated the investigation and were later joined by the USPIS; U.S.
August 11, 2005. He was arrested on the same day for misappropriation            Department of Labor OIG; Texas Workers’ Compensation Commission; and
of Postal Service funds.                                                         Texas Mutual Insurance Company. The total identified loss to the Postal
President of New York Construction Company Falsified Payrolls                    Service was approximately $1.2 million, and total fraudulent activity to
The president and owner of a New York-based construction company                 other federal agencies and private insurance companies was about $2.2
pleaded guilty to mail fraud in U.S. District Court in Brooklyn, NY, on April    million.
21, 2005, by submitting and mailing fraudulent certified payroll records to      Trucking Contractor Subverts More Than $1.4 Million in Postal
the Postal Service. The owner also made restitution of $96,000 for a wage        Service Funds
violation. He was arrested with the company vice president on December           On behalf of the Postal Service, the DOJ filed a civil complaint on September
14, 2004.                                                                        30, 2005, against a trucking company owner for violations of the Civil False
The firm was a subcontractor on a $7 million contract the Postal Service         Claims Act. The DOJ is seeking more than $4.2 million in damages and
awarded for renovations at the John F. Kennedy International Airport Post        penalties. The owner had pleaded not guilty on April 20, 2005, to charges
Office in Jamaica, NY. The subcontractor received about $470,000 for             of embezzlement, theft, and making false statements.
services it performed at the post office from October 7, 2001 through            The owner, whose companies provided mail transport services to the
May 13, 2002. An investigation revealed the president and vice president         Postal Service, illegally accepted $902,772 in fuel rebates and $170,237
gave false statements to the Postal Service by underreporting the number         in contract payments to which he was not entitled. While managing the
of employees and over-reporting what the company paid them. We                   companies, the owner subverted fuel-purchase discounts to personal use
conducted this investigation jointly with the Department of Labor OIG and        rather than pass them to the Postal Service, as his contracts required. He
the New York City Department of Investigation.                                   also cashed contract payments the Postal Service mistakenly provided to
$704 Million Global Settlement Reached in Health Care Fraud Case                 him.
On October 17, 2005, an overseas drug company and its U.S. subsidiaries          Waste Recycler to Reimburse Postal Service $133,000
agreed to a $704 million settlement to resolve criminal charges and civil        The DOJ and an Arizona waste management company reached a
liabilities from illegal schemes to promote and sell their AIDS drug. Under      $133,000 settlement agreement on May 5, 2005, stemming from our
the terms of the settlement, the third largest involving health care fraud       investigation into the company’s practices. A postal manager prompted
in the United States, the firms will pay $136.9 million in criminal fines        the investigation, alleging the recycling company had overbilled the Postal
and more than $567 million to settle federal civil liabilities under the False   Service. Investigators determined the company improperly charged the
Claims Act. One of the U.S. subsidiaries will be excluded from all federal       Postal Service $33,280 for services related to the removal of recycling
health care programs for at least five years.                                    materials and $2,280 for other unidentified services from 1998 through
Since April 2002, we have been participating in a multi-agency                   2001. The company also failed to reimburse the Postal Service $81,335
investigation, which was prompted by a qui tam lawsuit. Our involvement          in recycling rebates.
is based on the alleged fraud of the Federal Employee Health Benefits
Program — as the Postal Service is the second largest contributor.
The case involved executives who allegedly falsified multiple health claims
and drug-approval documentation to increase sales of an AIDS drug that
the Food and Drug Administration conditionally approved. The defendants
also allegedly improperly offered inducements to physicians, causing
overbillings to the U.S. government. Four former drug company executives
were indicted in April 2005 in U.S. District Court in Boston on multiple
counts of false claims, kickbacks, and conspiracy. Two other individuals
pleaded guilty to conspiracy and kickback charges and are awaiting
sentencing.

Texas Medical Equipment Company Indicted for Overcharging Postal
Service
A Dallas federal grand jury returned a 27-count indictment against a
Dallas-area medical business and two of its employees on August 8, 2005.
The grand jury indicted the employees and the business with one count




                                                                                                                                                  April 1 – September 30, 2005 | 55
supplemental information
Freedom Of Information Act
Activities
For the period April 1 – September 30, 2005

                                     Requests                                              Number of Requests

                                     Carryover from prior period                                           5
                                     Received during period                                              103
                                     Total on hand during the period                                     108


                                     OIG actions                                           Number of Requests

                                     TOTAL Processed during the period                                    99
                                         Request released in full                                         11
                                         Request partially granted                                        23
                                         Request not granted                                              14
                                         Request referred to another agency                               17
                                         No records                                                       32
                                         Not a proper FOIA request                                         2



                                     Balance                                                  Number of Days

                                     Requests pending at the end of the period                             9



                                     PROCESSING DAYS                                          Number of Days

                                     Median processing days to respond to a FOIA request                   9




56 | Semiannual Report to Congress
                                                                                                                                                                               supplemental information
supplemental information
Glossary
Advance fee scheme – Obtaining fees purporting to secure buyers or           Express Mail Service – A mail class that provides expedited delivery
obtain loans.                                                                service for mailable matter subject to certain standards. It is available
                                                                             in five basic domestic service offerings (Same Day Airport Service,
AMC – An Air Mail Center is a postal facility at an airport that
                                                                             Custom Designed Service, Next Day Service, Second Day Service,
receives, concentrates, transfers, dispatches, and distributes mail
                                                                             and Military Service). Express Mail International Service is available
transported by air.
                                                                             between the United States and most foreign countries. Express Mail
AMSOP – Early morning standard operating procedures that assist the          is a Postal Service trademark.
managers and postmasters in making better business decisions for
                                                                             False billings scheme – Mailing solicitations in the guise of billings.
city delivery operations.
                                                                             FECA – Postal Service employees injured while performing their
APC – Automated Postal Center, a kiosk that dispenses postage and
                                                                             duties may be eligible for compensation under the Federal Employee’s
provides several mailing services. APC’s allow customers to weigh,
                                                                             Compensation Act (FECA).
calculate, apply exact postage, and ship Express Mail and Priority Mail
items, packages, and First-Class letters right at the kiosks. They also      FEHB – The Federal Employees Health Benefits (FEHB) program helps
provide easy access to postal products and services.                         federal employees, retirees, and their survivors meet health care
                                                                             needs through a wide selection of health plans across the country.
ATO – Air Transfer Office only supports core airport operations such
as tender and receipt of mail and ramp activities.                           First-Class Mail – A class of mail that includes all matter wholly or
                                                                             partly in writing or typewriting, all actual and personal correspon-
Bargaining unit employee – A Postal Service employee who is
                                                                             dence, all bills and statements of account, and all matter sealed or
represented by a labor organization (union) that negotiates with the
                                                                             otherwise closed against inspection. First-Class Mail comprises three
Postal Service for the wages, hours and other terms and conditions
                                                                             subclasses: postcards, letters and sealed parcels, and Priority Mail.
of employment. These employees include city carriers, clerks, mail
                                                                             Any mailable matter may be sent as First-Class Mail. First-Class Mail
handlers, rural carriers, special delivery messengers, maintenance
                                                                             is a Postal Service trademark.
employees, and motor vehicle operators.
                                                                             Flat-size mail – A mailpiece that exceeds one of the dimensions
BDS – See Biohazard Detection System.
                                                                             for letter-size mail (11-1/2 inches long, 6-1/8 inches high, 1/4 inch
BMC – Bulk Mail Center, where packages and standard mail are                 thick) but that does not exceed the maximum dimension for the mail
processed.                                                                   processing category (15 inches long, 12 inches high, 3/4-inch thick).
BMEU – See Business mail entry unit.                                         Dimensions are different for automation rate flat-size mail eligibility.
                                                                             Flat-size mail may be unwrapped, sleeved, wrapped, or enveloped.
Bulk mail – Mail that is rated for postage partly by weight and partly
by the number of pieces in the mailing. The term is generally used to        Fraud internet schemes – Fraudulent schemes using the Internet
refer to Standard Mail (A).                                                  with a connection to the mail.

Business mail entry unit (BMEU) – The area of a postal facility              FY – Fiscal Year.
where mailers present bulk, presorted, and permit mail for accep-            FWC Forum – Federal Workers’ Compensation (FWC) Forum consists
tance. The BMEU includes dedicated platform space, office space and          of more than 18 IG offices who work together to reduce costs and
a staging area on the workroom floor.                                        combat fraud related to the Federal Employee’s Compensation Act
Biohazard Detection System – The Biohazard Detection System                  (FECA) across the federal government.
(BDS) detects the presence of harmful bio-agents that may exist in           Highway contract transportation routes – A route served by a postal
mailpieces that are processed in Processing and Distribution Centers         contractor to carry mail by highway between designated points.
(P&DCs) operated by the Postal Service.
                                                                             ICM – International Customized Mail agreements are contracts
Click-N-Ship – Click-N-Ship is an online, self-service mailing applica-      between the Postal Service and mailers for a period of one to two
tion that allows customers to enter a delivery address and weight,           years. These agreements represent individually negotiated discounts
choose a service shipping option, method of payment, and then print          with mailers within certain categories of outbound international mail
out postage-paid shipping labels.                                            in exchange for meeting prescribed annual minimum revenue or
DOIS – Delivery Operations Information System, deployed in 2002,             volume commitments.
provides delivery supervisors and managers with data (such as                IEMP – The Postal Service’s Integrated Emergency Management Plan
workload status reports and carrier performance information) to              that improves coordination or planning and response activities among
improve daily delivery operational performance.                              functional areas in the event of an emergency.
END initiative – The Evolutionary Network Development (END) initia-          IMPAC – The International Merchant Purchase Authorization Cards
tive is the next step in the Postal Service’s efforts to create a flexible   (IMPAC) are how the Postal Service acquires goods and services, in
logistics network to reduce costs, increase overall effectiveness, and       addition to contracts.
improve consistency of service.
                                                                             LK – A lobby kiosk (LK) can perform all post office transactions
ETOEs – Extraterritorial Offices of Exchange (ETOEs) are commercial          — purchasing stamps, mailing parcels, renting post office boxes,
businesses affiliated with foreign postal administrations that compete       initiating retail sales transactions — 24 hours-a-day, 7 days-a-week
in the international shipping and delivery market with the Postal            with payment by debit, credit, cash cards, and cash.
Service and commercial shippers not affiliated with foreign posts.




                                                                                                                                           April 1 – September 30, 2005 | 57
          Logistical support network – Activities or programs that support                                     instructions on the preparation of collection mail, dispatch schedules,
          the transportation of mail, such as fuel procurement, mail transport                                 and sorting plan requirements to mailers.
          equipment procurement and management, and vehicle management
                                                                                                               Remote Encoding Centers – When all computer-based means of
          and maintenance.
                                                                                                               resolving address information have been exhausted at a mail facility,
          Lottery scheme – Advertisements seeking money or property by mail                                    an image of an address is sent to a remote encoding center (REC),
          for participation in schemes to win prizes through chance.                                           where operators use video display terminals and keyboards to process
          Merchandise failure to pay scheme – Mail order merchandise                                           the address information. The results of this encoding are sent back
          acquired without providing payment.                                                                  electronically to the facility that has the mailpiece, thereby keeping
                                                                                                               the mailpiece in the automated mailstream.
          Merchandise misrepresentation scheme – Mail order merchandise
          or services that are materially misrepresented in advertising.                                       Retail facility – A postal unit of a Post Office and its subordinate units
                                                                                                               as well as military Post Offices that sell postage stamps and provides
          MERLIN –Mail Evaluation, Readability, and Lookup INstrument                                          other postal retail services to customers. The subordinate units are
          determines whether individual mailings qualify for the discounts                                     within the service area of a main post office and include post office
          claimed by the mailer.                                                                               stations, post office branches, contract postal units, and nonperson-
          Negotiated Service Agreement (NSA) – A contractual agreement                                         nel units.
          between the Postal Service and customers that gives pricing                                          Standard Mail – A class of mail consisting of mailable matter that
          incentives in exchange for a shift in customer behavior that benefits                                is not required to be mailed as First-Class Mail or is not mailed as
          the Postal Service.                                                                                  Periodicals.
          NGK – Next Generation Kiosk (NGK) that could be designed to                                          Unsupported costs – Costs that are questioned because of inad-
          leverage the success of the APC. The NGK could sell stamps printed                                   equate supporting documentation for the proposed/ claimed costs.
          on demand, allow payment by cash, and enhance revenue-reporting
          capabilities for management.                                                                         USPIS – U.S. Postal Inspection Service, a law enforcement arm of the
                                                                                                               Postal Service that provides assurance to American businesses for the
          OWCP – Administered by the U.S. Department of Labor, the Office of                                   safe exchange of funds and securities through the U.S. Mail; to postal
          Workers’ Compensation Programs (OWCP) provides direct compensa-                                      customers of the “sanctity of the seal” in transmitting correspondence
          tion to providers, claimants, and beneficiaries.                                                     and messages; and to postal employees of a safe work environment.
          PARS – Postal Automated Redirection System.                                                          Verification – The procedural checks of a mailing presented by a
          PCIE / ECIE – The President’s Council on Integrity and Efficiency                                    mailer to determine proper preparation and postage payment.
          Executive Council on Integrity and Efficiency address integrity, economy,                            Value proposition – Develops audit work that maximizes benefits
          and effectiveness issues that transcend individual government agen-                                  to the Postal Service and assists top management in reaching their
          cies. This organization also seeks to increase the professionalism and                               goals.
          effectiveness of IG personnel throughout the government.
                                                                                                               VESS – Vending Equipment Sales and Service (VESS) System data
          POS ONE – Point of Service (POS) ONE is an electronic system that                                    is an online database that offers real-time tracking of product sales,
          records sales and payment transactions at retail facilities.                                         miscellaneous costs, and maintenance and service for vending
          Postal Rate Commission (PRC) – An independent federal agency                                         machines.
          that makes recommendations on Postal Service requests for changes                                    VMF – A Vehicle Maintenance Facility (VMF) is where the Postal
          in postal rates and mail classifications. The five commissioners are                                 Service maintains and repairs vehicles.
          nominated by the President and approved by the U.S. Senate.
                                                                                                               Voyager Fleet Cards – Credit cards used by postal employees to
          Postal Reorganization Act – The statute that requires postal rates                                   acquire automotive goods and services, such as gasoline or repairs.
          and fees to “provide sufficient revenues so that the total estimated
          income and appropriations…will equal as nearly as practicable total                                  Work at home scheme – Schemes, such as envelope stuffing, that do
          estimated costs.” (Public Law 91-375, signed August 12, 1970.)                                       not provide home employment.

          Priority Mail – First-Class Mail that weighs more than 13 ounces and,
          at the mailer’s option, any other mail matter weighing 13 ounces or
          less. Priority Mail provides expedited delivery.
          Processing and Distribution Center/Facility (P&DC/F) – A central
          mail facility that processes and dispatches part or all of both incoming
          mail and outgoing mail for a designated service area. It also provides



          “The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®, USPS®, First Class Mail®, USPS.com®, Click-N-Ship®,
           Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®, The Postal Store®, Media Mail®, Customized Market Mail®, United States Postal Service Office of Inspec-
           tor General®, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail™, Delivery Confirmation™, Registered Mail™, Post Office Box™, ZIP Code™, Carrier Pickup™ and Postmaster
           General™. The Sonic Eagle Logo and the Mail Truck Design are also registered trademarks belonging to the U.S. Postal Service.”




58 | Semiannual Report to Congress
office of inspector general


Report
Fraud, Waste, and Misconduct
in the Postal Service

Contact the Hotline at:

1.888.USPS.OIG
1.888.877.7644
Fax: 1.866.756.6741
or www.uspsoig.gov
TTY (HEARING IMPAIRED)
1.866.OIG.TEXT
1.866.644.8398
     U.S. Postal Service
OFFICE OF INSPECTOR GENERAL
       1735 N. Lynn Street
    Arlington, VA 22209-2020
          703.248.2100
        Fax: 703.248.2291
   Internet: www.uspsoig.gov
